<html>
<title> - OVERSIGHT FIELD HEARING TITLED ``ALASKA'S SOVEREIGNTY IN PERIL: THE NATIONAL OCEAN POLICY'S GOAL TO FEDERALIZE ALASKA.''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





  ALASKA'S SOVEREIGNTY IN PERIL: THE NATIONAL OCEAN POLICY'S GOAL TO 
                           FEDERALIZE ALASKA

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

              Tuesday, April 3, 2012, in Anchorage, Alaska

                               __________

                           Serial No. 112-105

                               __________

       Printed for the use of the Committee on Natural Resources






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-693 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                

















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, April 3, 2012...........................     1

Statement of Members:
    Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska     4
        Prepared statement of....................................     5
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Farrell, Dr. John W., Executive Director, U.S. Arctic 
      Research Commission........................................    42
        Prepared statement of....................................    44
    Joule, Hon. Reggie, Member, Alaska House of Representatives..    12
        Prepared statement of....................................    13
    Madsen, Stephanie, Executive Director, At-sea Processors 
      Association, on behalf of the United Fishermen of Alaska...    22
        Prepared statement of....................................    24
    Moriarty, Kara, Executive Director, Alaska Oil and Gas 
      Association................................................    33
        Prepared statement of....................................    35
    Parady, Fred, Executive Director, Alaska Miners Association..    37
        Prepared statement of....................................    38
    Rogers, Rick, Executive Director, Resource Development 
      Council for Alaska.........................................    17
        Prepared statement of....................................    19
    Sturgeon, John, Director, Alaska Forest Association..........    40
        Prepared statement of....................................    41
    Vincent-Lang, Douglas S., Acting Director, Division of 
      Wildlife Conservation, Alaska Department of Fish and Game..     7
        Prepared statement of....................................     9

Additional materials supplied:
    Alaska Federation of Natives, Letter submitted for the record    51


 
  OVERSIGHT FIELD HEARING TITLED ``ALASKA'S SOVEREIGNTY IN PERIL: THE 
          NATIONAL OCEAN POLICY'S GOAL TO FEDERALIZE ALASKA.''

                              ----------                              


                         Tuesday, April 3, 2012

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                           Anchorage, Alaska

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:09 a.m., in 
the Assembly Chambers of the Z.J. Loussac Library-Main Branch, 
3600 Denali Street, Anchorage, Alaska, Hon. Don Young 
presiding.
    Present: Representative Young.
    Also Present: Senator Lisa Murkowski.
    Mr. Young. The Subcommittee will come to order. Good 
morning. Today the Subcommittee on Fisheries, Wildlife, Oceans 
and Insular Affairs will conduct an oversight hearing entitled 
Alaska's Sovereignty in Peril: The National Ocean Policy's Goal 
to Federalize Alaska.
    Before I begin, I'd ask that Senator Murkowski be allowed 
to join the Subcommittee on the dais and participate in the 
hearing. Hearing no objection, so ordered.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. I'd like to welcome our witnesses here today. 
You know, in four separate Congresses, legislation was 
introduced to create a National Ocean Policy. Most recently, 
the legislation is known as BOB, Big Ocean Bill. Congress is 
not active in this bill due to serious concerns about the scope 
of the legislation. Now, without statutory authorization, the 
Administration has decided to create a new vague regulatory 
bureaucracy through an Executive Order.
    The Executive Order creates a new National Ocean Policy and 
a complicated bureaucratic scheme, which includes: a 27-member 
National Ocean Council; an 18-member Governance Coordinating 
Committee; 10 National Policies; 9 Regional Planning Bodies--
each involving as many as 27 Federal agencies as well as states 
and tribes; 9 National Priority Objectives; 9 Strategic Action 
Plans; 7 National Goals for Coastal Marine Spatial Planning; 
and 12 Guiding Principles for Coastal Marine Spatial Planning. 
Are you confused yet?
    I've been confused ever since they introduced this. I hope 
you have a diagram. Think of what I said: 27 members, 18 
members, 10 National Policies, 9 Regional Planning Bodies, 27 
Federal agencies, 9 National Priority Objectives, 9 Strategic 
Action Plans. That means you've got too much in the pot when 
you're creating this soup.
    The Coastal Marine Spatial Planning Initiative is the most 
troubling. This initiative requires the establishment of nine 
Regional Planning Bodies, each made up of as many as 27 Federal 
agencies, which each will create Marine and Coastal Zone 
Planning. All Federal agencies will be required to follow these 
plans when making decisions on permits or when authorizing 
activities. These plans will reach far inland and affect all 
forms of resource development and add a new layer of decision-
makers. This will create even more uncertainty for businesses 
that we want to invest in Alaska.
    This goes not only in the ocean; it goes far inland. 
Despite the Administration's claims that it will be the most 
transparent ever, this Federal environmental overlay is being 
developed and implemented with no direct stakeholder involved. 
Nowhere in the United States will the effect of a National 
Ocean Policy be felt, as I said before, to as great an extent 
as in Alaska. The reach of this ocean policy will stretch 
throughout the entire State and affect almost all activity 
required by Federal permit.
    As we will hear from our witnesses today, the State's 
economic viability is a direct result of our ability to use our 
natural resources. Any new Federal initiative that affects our 
ability to use these natural resources will cost us jobs and 
take away our statehood.
    The Administration claims that this whole National Ocean 
Policy is nothing more than an attempt to coordinate Federal 
agencies and make better permitting decisions. Forgive me if 
I'm a little suspicious when the government through the 
Executive Order decides to create a new bureaucracy that will 
help us plan where activities can and cannot take place in our 
waters and inlets.
    This effort for zoning authority in the State of Alaska 
using criteria and new policy goals will not be helpful. In 
fact, this effort will take place whether the State of Alaska 
wants it to and makes me even more suspicious of the Federal 
Government.
    Alaska has the most productive fisheries in the U.S. and 
possibly the world. The North Pacific Fishery Management 
Council has allowed the fishermen themselves to be part of the 
process to participate in the government interpretation of the 
science used to create the management plan.
    Almost 6 percent of the seafood produced in U.S. waters 
comes from Alaska, but now the Federal Government is proposing 
a new overlay that will second-guess the North Pacific Council 
system and will require them to use new criteria--criteria that 
are not included in the Magnuson-Stevens Act. We have well-
managed oil and gas industries and mining industry. We manage 
our wildlife to allow ourselves a subsistence harvest and for 
sport hunting in a manner that allows for an incredible number 
and diversity of animals.
    We do not need the Federal Government coming in and telling 
us that we now have to change our management and regulatory 
system to work within a zoning plan based on new criteria and 
developed by bureaucrats behind closed doors in Washington, 
D.C.
    The National Ocean Policy is a bad idea. It will create 
more uncertainty for businesses and will limit job growth. It 
will also compound potential litigation by groups that oppose 
human activities. What makes matters worse, the Administration 
refuses to tell Congress how much money will be diverted from 
other uses to fund the new policy.
    The Federal budget is already tight. Taking money from 
existing research and management to fund some poorly designed 
national initiative that will hinder economic growth of Alaska 
is just wrong. This is not the first oversight hearing that's 
being held on the National Ocean Policy, and it will not be the 
last.
    I want everybody to understand. We will continue this 
policy of hearing why this has been put forth by Executive 
Order. I look forward to hearing the witnesses today and 
hearing about the National Ocean Policy and how it will affect 
our activities.
    [The prepared statement of Mr. Young follows:]

                 Statement of The Honorable Don Young, 
         a Representative in Congress from the State of Alaska

    In four separate Congresses, legislation was introduced to create a 
national ocean policy. Most recently the legislation was known as BOB--
the Big Ocean Bill. Congress has not acted on these bills due to 
serious concerns about the scope of the legislation.
    Now, without statutory authorization, this Administration has 
decided to create a new, vague, regulatory bureaucracy through an 
Executive Order.
    The Executive Order creates a new National Ocean Policy and a 
complicated bureaucratic scheme which includes: a 27-member National 
Ocean Council; an 18-member Governance Coordinating Committee; 10 
National Policies; 9 Regional Planning Bodies--each involving as many 
as 27 Federal agencies as well as states and tribes; 9 National 
Priority Objectives; 9 Strategic Action Plans; 7 National Goals for 
Coastal Marine Spatial Planning; and 12 Guiding Principles for Coastal 
Marine Spatial Planning. Are you confused yet?
    The ``Coastal and Marine Spatial Planning'' initiative is the most 
troubling. This initiative requires the establishment of 9 Regional 
Planning Bodies--each made up of as many as 27 Federal agencies--which 
will each create marine and coastal zoning plans. All Federal agencies 
will be required to follow these plans when making decisions on permits 
or when authorizing activities. These plans will reach far inland and 
add a new layer of decision-makers. This will create even more 
uncertainty for businesses that want to invest in Alaska.
    And despite the Administration's claims that it will be the most 
transparent ever, this new federal environmental overlay is being 
developed and implemented with no direct stakeholder involvement.
    Nowhere in the United States will the effects of the National Ocean 
Policy be felt to the extent that it will in Alaska. The reach of this 
``ocean'' policy will stretch throughout the entire state and affect 
almost any activity that requires a federal permit. As we will hear 
from our witnesses today, the State's economic vitality is a direct 
result of our ability to use our natural resources. Any new federal 
initiative that affects our ability to use these natural resources will 
cost jobs.
    The Administration claims that this whole National Ocean policy is 
nothing more than an attempt to coordinate federal agencies and make 
better permitting decisions. Forgive me if I am a little suspicious 
when the Federal government--through an Executive Order--decides to 
create a new bureaucracy that will ``help'' us plan where activities 
can or cannot take place in our waters and inland. This effort to 
``zone'' a majority of the State of Alaska using new criteria and new 
policy goals will not be helpful. The fact that this effort will take 
place whether the State of Alaska wants it to or not makes me even more 
suspicious.
    Alaska has the most productive fisheries in the U.S. and possibly 
the world. The North Pacific Fishery Management Council has allowed the 
fishermen themselves to be a part of the process--to participate in the 
development and interpretation of the science used to create the 
management plans. Almost 60% of the seafood produced in U.S. waters 
comes from Alaska. But now the federal government is proposing a new 
overlay that will second guess the North Pacific Council system and 
will require that they meet some new criteria--criteria that are NOT 
included in the Magnuson-Stevens Act.
    Our forests are productive despite the federal government and 
environmental litigants' efforts to stop that industry. We have a well-
managed oil and gas industry and mining industry. And we manage our 
wildlife to allow for subsistence harvest and for sport hunting in a 
manner that has allowed for an incredible number and diversity of 
animals. We do not need the Federal government coming in and telling us 
that we now have to change our management and regulatory systems to 
work within a new zoning plan based on new criteria developed by 
bureaucrats behind closed doors in Washington, D.C.
    This National Ocean Policy is a bad idea. It will create more 
uncertainty for businesses and will limit job growth. It will also 
compound the potential for litigation by groups that oppose human 
activities. To make matters worse, the Administration refuses to tell 
Congress how much money it will be diverting from other uses to fund 
this new Policy. The Federal budget is already tight. Taking money from 
existing research and management missions to fund some poorly-designed 
national initiative that will hinder economic growth in Alaska is just 
wrong.
    This is not the first oversight hearing we have held on the 
National Ocean Policy and this will not be the last.
    I look forward to hearing from today's witnesses and hearing how 
the National Ocean Policy will affect their activities.
                                 ______
                                 
    Mr. Young. With that, I recognize Senator Murkowski and 
hear any statement. By the way, I do believe this is the first 
time we've ever had a Senator from Alaska and a Congressman 
from Alaska sitting on the same panel and having the House hold 
the Chair. I do thank you, Senator, for being here.
    Senator Lisa.

             STATEMENT OF THE HON. LISA MURKOWSKI, 
            A U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Murkowski. Thank you. Thank you, Congressman Young, 
not only for doing this oversight hearing in Anchorage today on 
the National Ocean Policy, but for allowing me to join you in 
this effort. I do recognize that it is somewhat unusual and I 
am actually happy that we're able to do this.
    I appreciate the opportunity to be here to dive into some 
of the anticipated effects of the nine National Ocean Policy 
initiatives, including the Coastal Marine Spatial Planning. I 
share the concerns that you have outlined. When you outlined 
the number of entities that are involved, it kind of reminded 
me of the partridge in a pear tree. We might be able to sing 
that one together.
    I do believe that the concerns that have been expressed by 
a number of industries, state and local governments, I think we 
recognize this is yet another attempt by the executive branch 
to tell us how we can and how we cannot use our oceans and our 
coast. In the FY12 budget request from the President, I worked 
to ensure that the Coastal Marine Spatial Planning funding 
request was zeroed out. I'm glad the President got the message 
and did not request CMSP funding. But I do worry that the 
Administration will continue to work and to move forward with 
all aspects of the National Ocean Policy.
    Back in January the National Ocean Council released a draft 
National Ocean Policy Implementation Plan identifying an 
exhaustive list of milestones, many for 2012/2014 completion. I 
think some of these milestones are pretty ambitious.
    For example, within the Ecosystem Base Management Policy, 
which I think there are 20 milestones, one of them is to 
develop national guidelines and best practices for ecosystem-
based management implementation based on engagement of the 
nonFederal partners and stakeholders. Another is to establish a 
process for adaptive resource management.
    I commend the resource management bodies here in the Alaska 
region, like the North Pacific Fishery Management Council for 
proactively developing and integrating ecosystem-oriented 
management approaches into their decision-making process. 
However, I do not support national guidelines that dictate 
standards for ocean management. These one size fits all 
standards rarely work for Alaska.
    National Ocean Policy milestones would require tremendous 
coordination and as you point out, Mr. Chairman, they would be 
very costly. And you have to ask yourself: To what end? We need 
more science and baseline information in order to effectively 
incorporate ecosystem-based management and decision-making, but 
arbitrary milestones in the draft National Ocean Policy 
Implementation Plan will drain resources from foundational 
science and core Federal programs.
    The National Ocean Policy will be expensive and we 
recognize that. As you point out, there's no dedicated funds 
for agencies to follow through with commitments that are 
identified in the draft Implementation Plan. In Washington, 
we've been hearing from agencies that the Administration's 
National Ocean Policy initiatives will be absorbed by existing 
programs, but the agencies have not provided us with any 
indication of what work will need to be set aside as a 
tradeoff. We simply can't make that expansion without 
offsetting it somewhere else.
    Now, just one final comment on CMSP for a second. The 
President's budget calls for expanding the Regional Ocean 
Partnership Grants by half a million dollars. Regional Ocean 
Partnerships have been formed in regions of the country where 
they feel that there is a need for some coordination above and 
beyond what existing management bodies can provide on their 
own.
    Regional Ocean Partnerships were a way for those regions to 
continue to move forward with that type of work without 
imposing CMSP and the associated Regional Planning Bodies on 
everyone. I was disappointed to learn that this year the 
Regional Ocean Partnership competitive grants support 
activities that contribute to achieving the priorities 
identified by Regional Ocean Partnerships while also advancing 
National Ocean Policy priorities, including national CMSP 
framework. I think this program is clearly being used to 
advance the Administration's CMSP initiative despite the fact 
that Congress has zeroed out CMSP funding.
    These are just a couple of the concerns that I have, in 
addition to what you have, Congressman. I look forward to the 
testimony that we will hear and an opportunity for ongoing 
discussion about this proposed national policy.
    [The prepared statement of Senator Murkowski follows:]

              Statement of The Honorable Lisa Murkowski, 
                a U.S. Senator from the State of Alaska

    I would like to thank my good friend, Congressman Young, for 
calling this oversight field hearing on the National Ocean Policy and 
allowing me to join you on the panel. I appreciate the opportunity to 
be here in Alaska to dive into some of the anticipated affects of the 
nine National Ocean Policy initiatives, including Coastal and Marine 
Spatial Planning (or CMSP). You know as a member of the Senate 
Appropriations CJS Subcommittee, I worked to defund FY 2012 spending 
for CMSP, and I was pleased to see that the President's budget request 
left that budget line item at zero for FY 2013. Congressman Young, 
despite the message Congress sent in pulling funds for CMSP, I see many 
indications that the administration continues to move forward will all 
aspects of NOP.
    In January, The National Ocean Council released a draft National 
Ocean Policy (NOP) implementation plan identifying an exhaustive list 
of milestones, many for 2012-2014 completion. Some of these milestones 
are pretty ambitious. For example, within the Ecosystem-based 
Management policy objective, there are 20 milestones. One of them is to 
develop national guidelines and best practices for EBM implementation 
based on engagement of non-Federal partners and stakeholders. Another 
is to establish a process for adaptive resource management.
    I support ecosystem-oriented decision making, and commend resource 
management bodies in the Alaska region like the North Pacific Fishery 
Management Council for proactively developing and integrating 
ecosystem-oriented management approaches into their decision making 
process. However, I do not support the concept of issuing national 
guidelines dictating standards for EBM, these one-size-fits all 
standards rarely work for Alaska
    These two milestones alone, both targeted for 2013, would require 
tremendous coordination and would be very costly. And I have to ask to 
what end? We need more science and baseline information in order to 
effectively incorporate ecosystem based management in decision making--
ironically, arbitrary milestones in the draft NOP implementation plan 
will drain resources from foundational science and core federal 
programs. EBM is just one of nine priority policy objectives, each with 
action items and milestones in the draft NOP implementation plan.
    NOP will be expensive, and there are no dedicated funds for 
agencies to follow through with commitments identified in the draft 
implementation plan. In budget hearings in Washington, we've been 
hearing from agencies that the administration's NOP initiatives will be 
absorbed by existing programs, yet agencies have not provided us any 
indication of what work will need to be set aside as a tradeoff.
    I'd like to return to CMSP for a minute. The President's Budget 
calls for expanding the Regional Ocean Partnership grants by $0.5 
million. Regional Ocean Partnerships have formed in regions of the 
country where they feel there's a need for some coordination above and 
beyond what existing management bodies can provide on their own. 
Regional Ocean Partnerships were a way for those regions to continue to 
move forward with that type of work without imposing CMSP and the 
associated Regional Planning Bodies on everyone right now. I was 
disappointed to learn that this year, Regional Ocean Partnership 
competitive grants support activities that contribute to achieving the 
priorities identified by Regional Ocean Partnerships while also 
advancing NOP priorities including the national CMSP Framework. This is 
an unacceptable end run around Congress to implement CMPS. This program 
is clearly being used to advance the administration's CMSP initiative. 
Eligibility standards for ROPs under the grant program require only 
that applicants be a government, institution of higher learning, or 
non-profit or for-profit organization that may receive and expend 
federal funds. Yet, the administration's definition of CMSP includes 
identifying areas most suitable for various types or classes of 
activities.
    There is no guarantee Regional Ocean Partnerships are the 
appropriate body to be making recommendations or dictating what can and 
cannot happen in waters off Alaska or along the Alaska coastline, and 
they certainly would not have the authority.
    Congressman Young, these are just a few of my concerns about NOP, 
and I look forward to learning more through the testimony we receive 
today about Alaskan's concerns over NOP and CMSP, and how the 
organizations represented here today think the NOP priority initiatives 
will affect them.
                                 ______
                                 
    Mr. Young. Thank you, Senator.
    Mr. Young. Without objection, I'm going to submit for the 
record a letter from Governor Parnell and a synopsis of this 
bill dated July 2nd, 2011, an additional letter from Governor 
Parnell on October 3rd, 2011, and we have other correspondence 
from the State and how they think this is a bad idea.
    [The documents submitted for the record have been retained 
in the Committee's official files.]
    Mr. Young. I mentioned the confusion. This is the map we're 
looking at right here, ladies and gentlemen. I know you may not 
be able to see it, but this is how confusing this thing is. 
This is by Executive Order 13547, and it goes on, nine 
priorities, objectives, 27 members here, 10 national policies 
and I can go on down the line. This is an example of what 
they're proposing.
    There will be nothing ever achieved in this state when we 
lose our statehood. That sounds kind of alarming, but the 
utilization of our resources--this will be and has been the 
State of Alaska. We became a state for our socioeconomic well-
being by utilization of our resources. As a state, this takes 
that right away.
    With that, we call up our first panel. Mr. Doug Vincent-
Lang, Acting Director of Division of Wildlife Conservation, 
Alaska Department of Fish and Game. We have The Honorable 
Reggie Joule, a Member of the House of Representatives, Mr. 
Rick Rogers, Executive Director, Resource Development Council 
for Alaska, and I believe Ms. Madsen, National Committee Chair, 
United Fishermen of Alaska.
    I think you all know this. I'm pretty lenient as far as 
time goes, but you're actually supposed to take five minutes. 
When the panel is finished, we'll ask questions.
    Mr. Lang, you're first.

       STATEMENT OF DOUG VINCENT-LANG, ACTING DIRECTOR, 
 DIVISION OF WILDLIFE CONSERVATION, ALASKA DEPARTMENT OF FISH 
                            AND GAME

    Mr. Vincent-Lang. Good morning Representative Young, 
Senator Murkowski. Thanks for coming to Alaska to hear all the 
testimony on Ocean Policy. My name for the record is Doug 
Vincent-Lang. I'm testifying on behalf of the State of Alaska.
    Let me begin by stating that Alaska has a strong interest 
in assuring the continued health and productivity of its marine 
and coastal resources. We rely on these areas for commercial 
fisheries, subsistence uses, recreation, transportation, 
shipping, and a multitude of other uses. Marine and coastal 
resources are vital to our economy, supporting a vibrant 
fishing industry that produces almost $6 billion in economic 
activity in our State Annually, accounts for approximately 60 
percent of the nation's seafood production, and is our largest 
private sector employer.
    Coastal and marine areas also provide abundant development 
opportunities, such as offshore oil and gas, renewable energy, 
shipping and tourism. With over 44,000 miles of shoreline, more 
mileage than the other eight proposed planning areas combined--
and an expansive EEZ, Alaska's interest in the ocean and 
coastal resources cannot be overstated.
    The implementation of the President's National Ocean Policy 
institutes a new Federal framework to govern our marine and 
coastal activities. Upon inspection, it Federalizes decision 
process regarding marine and coastal activities and embeds 
authority into regional governance boards dominated by Federal 
agencies and Federal decision processes.
    Alaska's marine and coastal resources and their uses are 
already tightly regulated by a vast and diverse array of 
Federal, state and local authorities. This existing oversight 
has a proven track record and is fully capable of ensuring the 
long-term health and viability of our marine and coastal 
resources. We do not believe additional Federal regulatory 
oversight is needed and we oppose creation of additional 
Federal bureaucracy and regulation and view it as an 
unnecessary threat to our sovereignty.
    We also do not support the use of this process for zoning 
or alternatively for regulated marine use planning purposes. 
Instead, we support achieving efficiency by relying on the 
effective proven resources processes and authorities that are 
already in place. Any establishment of further authority should 
be through direct congressional action.
    Congress has a keen awareness of the current multi-
jurisdictional structure and respect for the traditional role 
of states in managing our marine and coastal resources. 
Jurisdiction and management decisions for marine waters and 
submerged lands and responsibility for marine and coastal 
activities and ecosystems is divided between the states and the 
Federal Government.
    Alaska's jurisdiction includes wetlands, uplands, tidal and 
submerged lands and extends out three nautical miles to the 
territorial limit. Within these areas, Alaska manages and 
leases lands and, with Federal and local agencies, permits and 
restricts activities that could impact the environment. Alaska 
and the Federal Government each have respective sovereign 
responsibilities and authorities to maintain healthy, resilient 
and sustainable marine and coastal resources.
    Any adopted program must recognize and respect Alaska's 
jurisdiction and sovereign authorities. Coastal states must be 
recognized as equal partners with sovereign jurisdictions and 
authorities and not relegated to stakeholder status in any 
planning effort. Any new policies affecting coastal areas must 
be developed and implemented from the ground up, not from the 
top down as currently proposed.
    The best policies are those that are local, not made by 
bureaucrats over 3,000 miles away. We believe state-driven 
efforts are best suited to addressing these stakes in Alaska, 
not new Federal programs. Alaska's experience and record 
demonstrates that a strong state model can be very effective 
when implemented responsibly and therefore national policies 
must recognize the need for state-based decision-making.
    Our record of sustainable management of Alaska's marine and 
coastal resources has led to national and international 
recognition of Alaska as a leader in these fields. A prime 
example is fisheries management, which is shared between the 
Alaska Board of Fisheries and the North Pacific Fishery 
Management Council.
    Rather than develop an implementation of new regulatory 
programs, a better focus would be in investment Arctic 
research, monitoring and infrastructure. In short, we need more 
resources, not more rules to ensure conservation of our coastal 
and marine resources. It is unfortunate that the new planning 
effort is draining agency resources at a time when core agency 
functions are struggling for funding due to declining Federal 
budgets.
    We prefer to see the Federal Government use its resources 
on the many needs in the Arctic and to focus on the much needed 
and research and monitoring rather than expending resources on 
an unnecessary and duplicative planning effort.
    Finally, to ensure an effective outcome, it is critically 
important that any planning effort have clearly defined, 
expected outcomes, an appropriate timeline, and provides both 
the states and users of marine and coastal resources with the 
primary authority to develop ocean and coastal policies. 
Despite numerous requests by the State to provide such 
specifics, they have yet to be provided.
    The health and management of our marine and coastal 
resources is simply too critical to engage in a process that 
does not provide meaningful dialogue opportunities to address 
stated concerns.
    In closing, this policy is simply not ready for 
implementation. Until requested details are provided, 
especially with respect to governments and regulated use, the 
State cannot support this effort as currently described. We 
urge Congress to directly involve itself in this process and 
for the National Ocean Council to delay implementation of this 
policy to allow more meaningful dialogue to address State and 
other affected users concerns.
    I thank you for the opportunity to present these remarks on 
behalf of Governor Parnell and the State.
    Mr. Young. Thank you, Mr. Lang.
    [The prepared statement of Mr. Vincent-Lang follows:]

        Statement of Douglas S. Vincent-Lang, Acting Director, 
 Division of Wildlife Conservation, Alaska Department of Fish and Game

    Good morning Mr. Chair, members of the committee. My name is Doug 
Vincent-Lang. I am the Acting Director of the Division of Wildlife 
Conservation of the Alaska Department of Fish and Game. Today I am 
testifying on behalf of the State of Alaska.
    Let me begin by stating that Alaska has a strong interest in 
assuring the continued health and productivity of its marine and 
coastal resources. We rely on these areas for commercial and sport 
fisheries, subsistence uses, recreation, transportation, shipping, and 
a multitude of other uses. Marine and coastal resources are vital to 
our economy, supporting a vibrant fishing industry that produces almost 
six billion dollars in economic activity in our state annually, 
accounts for approximately 60 percent of the nation's seafood 
production, and is our largest private sector employer. Coastal and 
marine areas also provide abundant development opportunities, such as; 
offshore oil and gas, renewable energy, shipping, and tourism. The 
Alaska Outer Continental Shelf (OCS) is a large area, roughly the size 
of Texas and California combined, and is largely untapped as a natural 
resource. This area holds an estimated 27 billion barrels of oil and 
132 trillion cubic feet of natural gas, and is a key to our nation's 
energy security. With 44,500 miles of shoreline--more mileage than the 
other eight proposed planning areas combined--and an expansive 
Exclusive Economic Zone, Alaska's interest in managing ocean and 
coastal resources cannot be overstated.
    The implementation of the President's National Ocean Policy appears 
to be focused on developing a new federal regulatory framework to 
govern marine and coastal activities. Upon inspection, it appears to 
federalize decision processes regarding marine and coastal activities 
and to embed authority into regional governance boards dominated by 
federal agencies and federal decision processes. What is most troubling 
is that this governance overlays state lands and waters and directly 
threatens our sovereign authorities.
    Alaska's marine and coastal resources and their uses are already 
tightly regulated by a vast and diverse array of federal, state, and 
local authorities. This existing oversight has a proven track record 
and is fully capable of ensuring the long-term health and viability our 
marine and coastal resources. We do not believe additional federal 
regulatory oversight is needed and we oppose creation of additional 
federal bureaucracy and regulation and view this as an unnecessary 
threat to our sovgerinity. We also do not support use of this process 
for zoning or regulated marine use planning purposes. Instead, we 
support achieving efficiency by relying on the effective proven 
processes and authorities that are already in place.
    The State is not aware of a single law granting the President 
authority to amend or supplement existing statutes with a new National 
Ocean Council to be guided by the conservation principles of Executive 
Order 13537 while controlling the decisions of federal agencies and 
seeking to limit resource development to certain designated ocean or 
coastal zones. On its face, the Executive Order does not cite any 
federal statute as a source of such authority. If the Executive Order 
is based on existing authority the legal cite(s) should be provided. 
Otherwise, the authority to proceed should be through Congressional 
action. We urge that before imposing any new regulations, policies or 
strategies the federal executive branch seek express and clear 
authority for such changes through the passage of a bill by Congress. 
Congress has a keen awareness of the current multi-jurisdictional 
structure and respect for the traditional role of states in managing 
their marine and coastal resources.
    Congress has already ``occupied the field'' of management of the 
nation's coastal and ocean resources with the many laws now in place. 
In so doing Congress has already decided what laws and requirements 
apply to coastal and ocean development and what policies and criteria 
federal agencies should use to decide whether to grant a permit for a 
particular project. Overlaying the President's national ocean policy on 
top of the existing statutory and regulatory framework creates 
uncertainty and conflict, both of which are problematic if the goal is 
to encourage economic development, jobs, and certainty in permitting.
    Section 5(b) of the Executive Order says that ``executive 
departments', agencies' or office's decisions and actions affecting the 
oceans and coasts. . .will be guided by the stewardship principles and 
national priority objectives set forth in the Final Recommendations''. 
As such, the Executive Order mandates that agencies follow the 
President's policies and objectives when making decisions. This 
mandatory language is followed by language in the Executive Order that 
says ``to the extent consistent with applicable law'' but what does 
that mean? This raises the question as to whether a permitting agency 
deciding whether to grant a permit needs to follow the policy of the 
regional ocean plan or the direction of Congress in the Outer 
Continental Shelf Lands Act which sets out a policy with Congressional 
direction to promote development and to work with States and local 
communities in making permitting and leasing decisions on a case by 
case basis. Specifically, how would a permitting agency with that 
Congressional statutory framework fit that framework with the 
President's Executive Order which says the policy federal agencies 
should be following are the stewardship principles designed to protect 
oceans and bolster conservation, (Section 1 of Executive Order) and to 
follow the guidance of the National Ocean Council (Section 1 of the 
Executive Order) not Congress, or States or local communities or 
stakeholders.
    If the Executive Order did not mandate federal agencies to follow 
the direction and policy, if it said federal agencies ``may'' apply the 
policies and principles of the Executive Order if the action they are 
contemplating is not already covered by an act of Congress, and if the 
Executive Order said federal agencies must continue to give deference 
to, and cooperate and coordinate with states, local communities, and 
stakeholders as set out in current laws and regulations, then the 
Executive Order avoids conflict and uncertainty in federal decision-
making. But it does not say that. It uses mandatory language and while 
it contains some catch all language ``consistent with applicable law'', 
the language is not enough to save the Executive Order from becoming 
authoritative and stipulative.
    Given this, how would any member of the public or industry 
supportive of a permit or development know if the federal agency made 
its decision based on the policy and requirements in statute or those 
set out in the Executive Order, or how much weight it gave to specific 
factors in its decision making process? If an entity does not know 
which factors were relied on and to what degree, then federal agencies 
can just follow the principles of the Executive Order and give lip 
service to the actual laws and regulations that are on the books now. 
And states and companies looking to invest and create jobs are going to 
be concerned at a minimum that it is uncertain what factors will be 
brought to bear on their project.
    The federal government should also be required to follow the 
procedures of the Administrative Procedure Act which require federal 
agencies to follow rules and provide an opportunity for the public to 
comment, the Regulatory Flexibility Act which requires an estimate of 
the impacts on businesses from federal agency action, and the National 
Environmental Policy Act, which requires studies and analysis of any 
major federal action, which a new national ocean policy certainly 
qualifies for. (Since a timber sale for 10 acres qualifies.) All these 
protections should apply to this federal action in this Executive Order 
because it imposes a new national ocean policy which is significant 
action.
    Jurisdiction and management decisions for marine waters and 
submerged lands and responsibility for marine and coastal activities 
and ecosystems is divided between the states and the federal 
government. Alaska's jurisdiction includes uplands, wetlands, tide and 
submerged lands and extends out three nautical miles to the territorial 
limit. Within these areas, Alaska manages and leases lands, and with 
federal and local agencies, permits or restricts activities on them 
that could impact the environment. Alaska shares a common 
responsibility with the federal government to maintain healthy, 
resilient, and sustainable marine and coastal resources. Any adopted 
program must recognize and respect Alaska's jurisdiction and sovereign 
authorities.
    State government is in a good position to evaluate how proposed 
national marine and coastal policies will work, or not work, in 
different ecosystems and communities around the state. With a state as 
large and diverse as Alaska, it will be critically important to capture 
the experience and knowledge of the state in developing and 
implementing marine and coastal policies. We encourage that these 
policies be developed from the ground up, and not top down as is 
currently proposed. Durable, reliable, and implementable national 
policies require an understanding of local issues and a public process 
sufficient to ensure local support.
    There are already numerous successful partnerships in Alaska among 
federal, state, and local governments, tribes, organizations, and 
concerned citizens. National policies should recognize and build upon 
these existing partnerships and avoid supplanting them with management 
or direction coming from outside the state. The best decisions are 
those that are local, not made by bureaucrats 3,000 miles away. We 
believe state driven efforts like those of the Northern Waters Task 
Force are best suited to addressing the issues facing Alaska, not new 
federal programs.
    Alaska's experience and record demonstrates that a strong state 
model can be very effective when implemented responsibly and, 
therefore, national policies must recognize the need for state-based 
decision-making. Our record of sustainable management of Alaska's 
marine and coastal resources has led to national and international 
recognition of Alaska as a leader in these fields. A prime example is 
fisheries management which is shared between the Alaska Board of 
Fisheries and the North Pacific Fisheries Management Council. The 
management of fisheries by these bodies is perhaps the best in the 
world. In Alaska, significant progress has been made to strengthen and 
enhance marine research, coastal and marine observing, and habitat 
protection.
    Rather than development and implementation of new regulatory 
programs, a better focus would be investment in Arctic research, 
monitoring, and infrastructure. In short, we need more resources, not 
more rules, to ensure conservation of our coastal and marine resources. 
This effort is draining agency resources at a time when core agency 
functions are struggling for funding due to declining federal budgets. 
We would prefer to see the federal government focus its resources on 
the many needs in the Arctic and to focus on much needed fisheries 
research rather than expending resources on an unnecessary and 
duplicative planning effort.
    Needed infrastructure include aids to navigation, new polar-class 
icebreakers, ports in the Bering Sea and the Arctic Ocean, and forward 
basing for the U.S. Coast Guard (USCG) and Air National Guard aircraft. 
We also encourage the development of safe, secure, and reliable 
shipping regimes envisioned by the U.S. Arctic Policy.
    A national commitment to provide adequate and sustained funding for 
Arctic research and infrastructure is also needed. Alaska would benefit 
greatly from access to high resolution mapping and imagery. For 
example, much of Alaska's coastline lacks complete navigational and 
bathymetric data. Resources are also needed to increase our knowledge 
of ocean acidification and the effects of climate change on the marine 
environment and fish stocks, for stock assessments, and improved 
observing and monitoring of oceans conditions. We endorse the Sustained 
Arctic Observing Network and urge full U.S. participation.
    We also strongly recommend allocation of resources for enforcement 
and monitoring, especially full funding for the USCG to fulfill its 
responsibilities in international boundary enforcement and emerging 
responsibilities in the Arctic. The USCG's ``High Latitudes'' study and 
recommendations need to be released by the administration and key 
infrastructure recommendations presented to Congress for funding. 
Alaska is unique among states in that we share maritime boundaries with 
multiple foreign nations and manage fish stocks and marine mammals that 
migrate across international boundaries.
    From an international perspective, implementation of marine and 
coastal policy must recognize that different legal regimes, with their 
associated freedoms, rights and duties, apply in different maritime 
zones of foreign countries. Due to our shared boundaries with Canada 
and Russia in the Arctic this is a very important issue. For example, 
activities in the adjacent Canadian Beaufort Sea currently operate 
under the jurisdiction of the Arctic Waters Pollution Prevention Act. 
While we do not have a specific proposal to endorse at this time, we 
encourage discussion of an Arctic high-seas fisheries agreement.
    Rather than direct implementation of the provisions of an 
international treaty through executive order, we urge the Senate to 
ratify the United Nations Convention on the Law of the Sea. Once 
ratified, this treaty will allow the U.S. to claim jurisdiction over 
the offshore continental shelf beyond the 200-mile limit. As a result, 
U.S. boundaries could grow into areas that may hold large deposits of 
oil, natural gas, and other resources. Russia, Canada, Denmark, and 
Norway already have claims to Arctic territory and the U.S. needs a 
seat at the table to protect its interests.
    Finally, to ensure an effective outcome, it is important that any 
planning effort have clearly defined expected outcomes, an appropriate 
timeline, and provides both the states and the users of marine and 
coastal resources with primary authority to develop ocean and coastal 
policies. Despite numerous requests by the state to provide such 
specifics, they have yet to be provided. The health and management of 
our marine and coastal resources is simply too critical to engage in a 
process that does not provide clear policy direction and a meaningful 
avenue for both state and public input and support. Also, the process, 
including all decision processes, must be locally driven and not vested 
in federal bureaucrats in Washington DC. Coastal states must be 
recognized as equal partners with sovereign jurisdictions and 
authorities, not relegated to stakeholder status in marine and coastal 
policy development and implementation.
    In closing, while well-intentioned, this policy is simply not ready 
for implementation. Until requested details are provided, especially 
with respect to governance and regulated use, the State cannot support 
this effort as currently proposed. We urge the National Ocean Council 
to delay implementation of this policy and to have more meaningful 
dialogue to address state and other affected users concerns.
    Thank you for the opportunity to speak with you today.
                                 ______
                                 
    Mr. Young. Mr. Reggie Joule.

            STATEMENT OF HON. REGGIE JOULE, MEMBER, 
                ALASKA HOUSE OF REPRESENTATIVES

    Mr. Joule. Thank you, Congressman Young, Senator Murkowski.
    For the record my name is Reggie Joule. I represent House 
District 40. I have represented this district for the last 16 
years. My district stretches from the Canadian border on the 
northern and eastern coast down to Shishmaref. Within that 
district lies Prudhoe Bay, ANWR, the Red Dog Mine and countless 
unfounded other mineral and oil and gas resources.
    The coastline of my district sits squarely on the Beaufort 
and Chukchi Sea, an area which for thousands of years has 
supported and provided for the Inupiat people and their food 
sources. It is this same area that holds potentially vast 
amounts of oil and gas.
    Today everything seems to be happening at an accelerated 
rate. Ten years ago we were talking about the likelihood of 
drilling. This summer that's going to happen. There are new 
possibilities that are being discussed with northern shipping, 
mineral extraction, off-shore commercial fishing and tourism.
    With this in mind, in 2010 the Alaska Legislature formed 
the Northern Waters Task Force and that's what I'm here to talk 
about today, those recommendations. This task force was made up 
of State legislators, leaders from Alaska communities and 
representatives of the State and Federal agencies. We held 
meetings in Juneau, Anchorage, Barrow, Wainwright, Kotzebue, 
Nome, Wales, Bethel and Unalaska. We had experts from the 
universities and military, nongovernmental organizations, the 
oil and gas industry and dozens of State and Federal agencies.
    Additionally, and for me when we went to some of these 
communities, most of them, we heard from people who live in 
those communities. The message that they gave was pretty 
uniform and ended up being one of our top priorities that came 
out of the Northern Waters Task Force, and that was that 
communications was going to be a key in all of this and that 
local communities need to be included in the discussions, in 
the planning, the timing, and the decision-making of all of 
these things that are happening because if something goes awry, 
it is they who will pay the price.
    We focused on issues of Arctic governance, oil and gas 
development, marine transportation, Arctic infrastructure, 
Arctic fisheries and Arctic research. I've already highlighted 
one of our top recommendations and that was communications.
    One of the other recommendations that we came up with was 
the establishment of an Arctic Policy Commission. Now, we put 
together a resolution which passed the House of Representatives 
and is currently sitting in the Senate Finance Committee. This 
Commission, this Arctic Policy Commission, would be made up of 
stakeholders from across Alaska, from the Legislature to the 
Administration, the Federal Government, oil and gas industry, 
tribes, municipalities, corporations and a broad array of 
Alaskans.
    A couple other recommendations that we made that are 
already in play, the Law of the Sea Treaty. We passed that 
resolution a year ago. The Senate just passed--and the House 
just passed the resolution for ice breakers and forward base 
landing for the United States Coast Guard. So you will have 
those in front of you. One you do; one is coming.
    We need to pay attention to international agreements, 
shipping, fisheries, oil and gas and other transboundary 
issues. There's the search and rescue agreement that's already 
been made.
    But in closing, Mr. Chairman, one of the things I think 
that we need to do as a recommendation from the Northern Waters 
Task Force is the Arctic Council. In 2013 Canada will take the 
chair. Two years after that the United States will take the 
chair of the Arctic Council. We have an opportunity, I believe, 
for North America to make a great impact with the Arctic 
Council.
    There's much to look forward to. There's many challenges. 
We have one time to do this right, with the right research, 
with the right kinds of communications with the people that we 
serve, we can put our best foot forward. You have the rest of 
my written testimony in hand. Thank you for the opportunity to 
come here and we have forwarded the full report to both of your 
offices. Thank you.
    Mr. Young. Thank you, Mr. Joule.
    [The prepared statement of Mr. Joule follows:]

    Statement of The Honorable Reggie Joule, State Representative, 
  Alaska State Legislature, Chair of the Alaska Northern Waters Task 
                                 Force

SUMMARY OF THE MAIN FINDINGS OF THE ALASKA NORTHERN WATERS TASK FORCE
    The United States is an Arctic Nation because of Alaska. 
Diminishing sea ice and the intensifying worldwide race for natural 
resources has rapidly increased international interest in the Arctic. 
Arctic Nations are anticipating the development of northern shipping 
routes, mineral extraction, oil and gas exploration, commercial 
fisheries, and tourism. For Alaska, the economic benefits over the long 
term could be substantial. But how will we confront the challenges and 
opportunities awaiting us in the Arctic while also providing for 
sustainable communities and protecting the environment?
    In 2010, the Alaska State Legislature established the Alaska 
Northern Waters Task Force (ANWTF) to identify opportunities to 
increase the state's engagement with these issues. The task force is 
comprised of state legislators, leaders from Alaskan communities, and 
representatives of key state and federal agencies. The task force held 
twelve hearings in Juneau, Anchorage, Barrow, Wainwright, Kotzebue, 
Nome, Wales, Bethel, and Unalaska. Over 65 experts from universities, 
U.S. military, non-governmental organizations, and dozens of state and 
federal agencies testified. Additionally, the task force heard public 
testimony from local communities and residents. On both the state and 
federal level, the task force has identified numerous urgent needs. The 
following are its top three recommendations:
        1.  State-wide public testimony gathered by the task force made 
        it clear that the state and federal governments must provide 
        Alaskans with meaningful opportunities to participate in Arctic 
        policy and Outer Continental Shelf development decisions. Many 
        local government officials, tribal government representatives, 
        and individuals expressed a need for timelier, more frank, and 
        more thorough information from state and federal authorities 
        regarding policies and activities off Alaska's coasts. The task 
        force believes that consistent, structured communication and 
        consultation--particularly with those Alaskans likely to be 
        most impacted by evolving conditions--is the best way to build 
        consensus, advance responsible policies, and stimulate broadly 
        beneficial economic development.
        2.  The state of Alaska has only just begun to grapple with the 
        challenges and opportunities developing in the far north. It is 
        imperative the state be strategically involved and in a 
        leadership role in the development of policies affecting the 
        state, its communities, and citizens. It is therefore among the 
        task force's highest priorities to press for the creation of a 
        commission to develop a comprehensive state strategy for the 
        Arctic. As the Arctic changes, the decisions Alaska faces will 
        continue to evolve and grow in complexity. An Alaskan Arctic 
        Commission will enable Alaska to more effectively respond to 
        unfolding developments and will jumpstart Alaska's preparations 
        to ensure that the interests of the state and its people are 
        protected. The commission will also provide a means for 
        communities and residents to remain engaged and be heard. To 
        further this recommendation, the legislative task force members 
        submitted House Concurrent Resolution 23 (HCR 23) to the 
        legislature for consideration. HCR 23 creates a 17 member 
        commission whose purpose is to develop an Alaskan Arctic 
        Policy. HCR 23 has passed the House of Representatives and is 
        now in the Senate for consideration. I am hopeful that it will 
        pass the legislature this session.
        3.  The NWTF supports the Alaska State Legislature and the 
        state of Alaska continuing to encourage the United States 
        Senate to ratify the United Nations Convention on the Law of 
        the Sea (UNCLOS). Joining the more than 165 other nations that 
        have ratified UNCLOS will enable the U.S. to peacefully 
        legitimize its claims to resources in areas of the Continental 
        Shelf that extend beyond the 200-mile Exclusive Economic Zone. 
        To quote President George W. Bush, who, like President Barack 
        Obama, supports U.S. ratification of the convention, ``It will 
        give the United States a seat at the table when the rights that 
        are vital to our interests are debated and interpreted.''
    The following pages include additional priorities, among the many 
findings of the task force, in areas including Arctic governance, oil 
and gas development, marine transportation, infrastructure, fisheries, 
and research. The in-depth recommendations of the task force can be 
found at www.anwtf.com.
Arctic Governance:
    Changes in the Arctic make it necessary to evaluate the adequacy of 
existing Arctic governance structures and to consider adjusting these 
systems or creating new ones to better suit developing needs. At the 
international level, Arctic nations must strengthen their relations and 
enhance regulatory frameworks and policy mechanisms to address pressing 
issues. We in Alaska must ensure that our Arctic residents and the 
State of Alaska have a strong voice in these matters.
        1.  The NWTF supports the development of a comprehensive U.S. 
        Arctic policy that is adequately funded to carry out its 
        mission. This policy should ensure that national interests are 
        balanced with Alaska state interests, so that commitments to 
        safeguard the environment and the wellbeing of the region's 
        communities and cultures accompany all strategies for economic 
        development.
        2.  The NWTF recommends that the State of Alaska and the United 
        States participate in the adoption of international agreements 
        for shipping, fisheries, oil and gas development, and other 
        transboundary issues. It is in our interest to ensure all 
        parties develop resources in the region safely and responsibly.
        3.  The NWTF recommends the State of Alaska and the Alaska 
        State Legislature support greater international cooperation 
        through the Arctic Council. Having recognized that the Arctic 
        Council is the world's predominant intergovernmental forum for 
        Arctic governance, the NWTF recommends greater state engagement 
        with the council and encourages its member countries to support 
        expanding its mandate as an institution for forging 
        multilateral agreements among Arctic nations. In May 2011, the 
        Arctic Council formalized a search and rescue agreement 
        detailing plans for Arctic emergency response. The Arctic 
        Council also created a task force on oil spill preparedness and 
        response. The task force is co-chaired by Russia and the United 
        States, and is meeting for the third time in Anchorage on March 
        20-22, 2012. More agreements of this nature need to be 
        finalized before development increases. Should the Council's 
        mandate expand further into economic development issues in the 
        Arctic, the Alaska Arctic Policy Commission's usefulness will 
        only increase. Additionally, Canada will chair the Arctic 
        Council in 2013 and the United States will assume the 
        chairmanship in 2015. The two countries should partner closely 
        during their respective chairmanships to further mutual goals. 
        The United States and Alaska should begin working together now 
        with Canada to begin the collaborative process. The Arctic 
        Policy Commission's deliberations and recommendations will be 
        vital in assuring that Alaska makes the most of any 
        partnership.
Arctic Oil and Gas Development:
    A warming Arctic provides new opportunities and challenges for oil 
and gas development. A 2008 U.S. Geological survey estimates that 13 
percent of the earth's undiscovered oil reserves and 30 percent of the 
undiscovered gas reserves are in the Arctic.
        1.  The NWTF recommends that the State of Alaska and the United 
        States develop a framework for the identification, acquisition 
        and sharing of data and other information to support leasing, 
        permitting, and other agency decisions.
        2.  The NWTF recommends that the State of Alaska and the United 
        States support continued improvement in the ability of industry 
        and the government to prevent, contain, control, clean-up and 
        remediate spills in the Arctic. These measures should include 
        contingency plans and response capabilities for all vessels 
        operating in Arctic waters.
        3.  The NWTF recommends that the University of Alaska establish 
        an oil spill research center. The University of Alaska has 
        requested funding of approx. $2 million to establish an oil 
        spill research center but it is not currently in this year's 
        budget.
Arctic Marine Transportation:
    Maritime powers have been searching for a shorter route from the 
Atlantic to Asian waters for centuries. The warming Arctic raises the 
feasibility of two such routes: the Northern Sea Route, north of 
Russia, and the Northwest Passage, north of Canada and Alaska. Shipping 
traffic--already increasing--is expected to surge in the decades ahead. 
We must take steps to establish secure and environmentally sound marine 
transportation in the region as soon as possible.
        1.  The NWTF recommends that the United States, with the 
        participation of the state of Alaska, work with the 
        international community to finalize the Polar Code for ships 
        operating in Arctic waters and examine whether to establish an 
        offshore vessel routing scheme for circumpolar marine traffic, 
        including through the Aleutians.
        2.  The NWTF supports increasing short- and long-range 
        navigational aids in the North American Arctic and extending 
        Automatic Identification System (AIS) vessel tracking across 
        the North Slope waters to Tuktoyaktuk, in the Northwest 
        Territories.
        3.  The NWTF endorses completing the Aleutian Islands Risk 
        Assessment and recommends that the state of Alaska support and 
        participate in the United States Coast Guard Port Access Route 
        Study.
Arctic Fisheries:
    As sea ice diminishes and some commercial fish species move into 
northern waters, interest in Arctic fisheries has increased. However, 
currently there is not nearly enough information available to make 
sustainable management of commercial fisheries possible there, and in 
2009 the North Pacific Fishery Management Council approved a moratorium 
on commercial fishing in Alaskan waters north of the Bering Straits. 
The NWTF believes the state of Alaska and the U.S. government should 
continue in its precautionary policy, but the moratorium should not 
cause Alaska to postpone research into viable Arctic commercial 
fisheries.
        1.  The NWTF recommends greatly increasing fisheries-related 
        research and monitoring in the region.
        2.  The NWTF encourages the state of Alaska and the U.S. 
        government to continue actively negotiating fisheries-related 
        transboundary accords with other nations.
        3.  The NWTF recommends that the state of Alaska and federal 
        authorities prepare strategies to maximize the degree to which 
        local communities and resident Alaskans will benefit from the 
        development of commercial fisheries in Arctic waters.
Arctic Infrastructure:
    Immediate investment in Arctic infrastructure is a foremost 
priority for Alaska and the entire United States. Increased human 
activity related to shipping, oil and gas development, commercial 
fishing, and tourism will require, at a minimum, new ports and safe 
harbors, equipment and facilities for oil spill response, additional 
Polar Class icebreakers for the U.S. fleet, and improved charting and 
mapping.
        1.  The NWTF recommends the Alaska State Legislature and the 
        state of Alaska continue to urge the federal government to 
        forward base the United States Coast Guard in the Arctic and to 
        fund the construction of additional ice breakers and ice-
        capable vessels for the U.S. fleet. To further this effort, the 
        legislative members of the task force submitted House Joint 
        Resolution 34 (HJR 34) for consideration. This resolution urges 
        the U.S. Congress to fund all the facilities and vessels 
        necessary for the U.S. Coast Guard to fulfill its Arctic 
        missions, including funding more icebreakers and forward basing 
        the Coast Guard to the Arctic. HJR 34 has passed both the House 
        of Representatives and the Senate.
        2.  The task force recommends the state of Alaska and the 
        federal government continue efforts to develop deep-water ports 
        and additional safe harbors in northern waters as soon as 
        possible. The State of Alaska and the U.S. Army Corps of 
        Engineers is currently undergoing a ports study. The task force 
        strongly urges that these efforts be fast tracked and that the 
        development and construction of at least one Arctic port be 
        undertaken in the next several years.
        3.  The NWTF supports increased funding to expedite the 
        National Ocean and Atmospheric Administration's (NOAA) 
        Hydrographic Arctic mapping. The task force particularly 
        supports updated mapping of coastal navigation routes and 
        entrance routes to coastal villages.
Arctic Research:
    Worldwide climate change is having an outsized impact on the 
Arctic, where temperatures are rising twice as quickly as those in more 
southern latitudes. Profound transformations are underway in the 
Arctic's complex ecosystems. These changes are expected to trigger 
unprecedented degrees of human activity in the region. As a 
consequence, transformation in the far north will accelerate all the 
more, not just environmentally, but also on socioeconomic levels. Under 
these circumstances, the need for wide-ranging scientific research and 
monitoring in the Arctic has never been more pressing. We must continue 
to gather essential baseline information about the environment and its 
dynamics in order to become better able to discern shifting conditions. 
In turn, we will grow more proficient at grasping the implications of 
changes there, and we will improve our ability to prepare for and 
mitigate impacts. The NWTF recommends:
        1.  The NWTF recommends that the state of Alaska and the 
        federal government identify priorities for Arctic research. By 
        ranking priorities funding can be targeted more effectively and 
        research can be better coordinated. Major knowledge gaps will 
        be closed far more quickly.
        2.  The NWTF recommends improving the exchange of research 
        information and integration of data management. Faster and more 
        extensive integration of data collected by state and federal 
        agencies, academics, and industry would yield enormous benefits 
        for all stakeholders.
        3.  The NWTF recommends increased long-term monitoring of the 
        Arctic, including routine surveys of key chemical, physical, 
        and biological parameters of the Beaufort and Chukchi Seas. In 
        order to better understand, quantify, and predict the effects 
        of on-going changes in both marine and terrestrial Arctic 
        ecosystems, Alaska must increase our long-term monitoring of a 
        wide range of environmental characteristics. Funding for Arctic 
        Ocean monitoring is under consideration in the Alaska State 
        Legislature but is not currently in any budget.
    There are many issues facing the Arctic. Many need attention and 
action now. Working together we can develop the Arctic in a manner that 
benefits the state while maintaining healthy sustainable communities. 
The Arctic conversation is really just beginning but the dialogue must 
continue and engage all stakeholders. The forum for the dialogue isn't 
as important as the opportunity for consistent, meaningful dialogue and 
input. Thank you for your time and consideration on this matter.
                                 ______
                                 
    Mr. Young. Mr. Rogers.

    STATEMENT OF RICK ROGERS, EXECUTIVE DIRECTOR, RESOURCE 
                 DEVELOPMENT COUNCIL FOR ALASKA

    Mr. Rogers. Thank you, Congressman Young, Senator Murkowski 
for traveling back home to hear our views on this important 
national issue. I really appreciate it.
    For the record, my name is Rick Rogers. I'm the Executive 
Director of the Resource Development Council for Alaska. RDC is 
a Statewide membership-funded nonprofit trade association and 
we represent the combined interests of forestry, fishing, 
tourism, mining, and oil and gas industries in Alaska. Our 
membership is truly a broad cross-section of Alaska businesses, 
including the aforementioned industries as well as local 
communities, all twelve Alaska Native Regional Corporations, 
organized labor, utilities and support businesses, all of whom 
recognize the important role resource development plays in our 
economy. For the record I have submitted a copy of our most 
recent annual report to better reflect who I represent today.
    The National Ocean Policy will have a disproportionate 
impact on Alaska's resources and industries and our economy as 
a whole. It is appropriate that the Subcommittee chose to hold 
a field hearing here in Alaska. At approximately 34,000 miles--
and I think that's--the State found an additional 10,000 
miles--anyway, we have a lot of coastline here in Alaska and we 
have more coastline than the rest of the country combined. So 
this policy has a disproportionate impact on Alaska.
    The National Ocean Policy adds uncertainty and anxiety to 
an already cumbersome and complex regime of state and Federal 
permitting and oversight. Increased bureaucracy could hamper 
the already slow processes with no added benefit to the 
environment. In our view. the Coastal Marine Spatial Planning/
Regional Planning Body structure is an unauthorized new 
regulatory program that suggests a Federal level ``top down'' 
approach to the management of resources with minimal local 
input.
    The ecosystem-based management goal requires a vast amount 
of scientific data to be fully implemented. The lack of 
sufficient information is often the basis for third-party legal 
claims by environmental nongovernmental organizations, eNGO's, 
to block development projects and their corresponding jobs. 
Natural resource managers need to use the best available data 
to move forward and make the best decisions with information 
available. We're concerned that ecosystem-based management runs 
the risk of paralysis by analysis.
    The National Ocean Policy's stated goal of reaching to 
onshore activities adds to the uncertainty and anxiety for 
upland uses and resource development. Section 404 of the Clean 
Water Act and the ubiquitous nature of wetlands means upland 
activities are already highly regulated in Alaska. Ever 
increasing and stringent clean air standards are already 
burdensome offshore and inland. A plethora of petitions to list 
additional species under the Endangered Species Act on and 
offshore add burden to landowners and resource industries.
    The hardrock mines in Alaska require over 60 state and 
Federal authorizations to proceed with development. The 
National Ocean Policy adds yet another hurdle to overcome and 
may serve to provide an additional platform for third-party 
eNGO's to litigate against projects that appear to lack the 
informational requirements or expectations for the National 
Ocean Policy.
    RDC is concerned that Coastal and Marine Spatial Planning 
may lead to far-reaching use restrictions on marine waters that 
will override social and economic needs of Alaskans. Broad 
swaths of submerged lands could be restricted in exclusionary 
zones for a nebulous national agenda of ecosystem-based 
management.
    Even if restricted zones were more modest in size and 
scope, use restrictions in strategic marine corridors necessary 
for resource transport and shipping could be devastating to our 
marine-dependent industries.
    One of the key justifications for Coastal and Marine 
Spatial Planning is to resolve conflict among diverse resource 
interests, yet RDC members representing mining, tourism, 
forestry, oil and gas and fisheries interests are firmly 
aligned. These industries are all concerned that the National 
Ocean Policy will create far more difficulties than it will 
resolve.
    RDC is concerned that funds used in implementing National 
Ocean Policy will come at the expense of congressionally 
mandated activities. RDC's member companies require mandatory 
permits and often Federal leases to operate and declining 
Federal resources should not be expended on National Ocean 
Policy at the expense of these congressionally mandated 
obligations.
    RDC members also require the best scientific data to 
address the impacts of their activities and funding diverted to 
National Ocean Policy could come at the expense of these needed 
scientific efforts. We urge Congress to maintain an integral 
role in these broad efforts to change the way ocean and coastal 
resources are managed and the power of appropriations should be 
considered in restraining the premature implementation of the 
National Ocean Policy.
    Congressional oversight is needed to ensure implementation 
of the National Ocean Policy does not constrain the ability of 
Federal agencies to fulfill their congressional mandates to 
adjudicate needed Federal permits and leases.
    RDC is concerned with the process being used to roll out 
this far-reaching policy. We have repeatedly requested 
meaningful stakeholder engagement without the suspected bias 
toward conservation and blocking of responsible resource access 
and development. These concerns are underscored by the fact 
that the Regional Planning Bodies charged with developing 
zoning plans will be comprised solely of government officials.
    Detailed economic analysis of the impacts of the policy 
should be completed and available for full public and 
congressional review before policy implementation. The Handbook 
for Coastal and Marine Spatial Planning must be subject to 
public input, review and comment before implementation.
    We have urged the National Ocean Council to utilize pilot 
projects in geographic areas where National Ocean Policy and 
Coastal Marine Spatial Planning has broad acceptance, before 
large swaths of ocean and marine areas, such as Alaska, have 
the policy imposed upon them.
    In this time of tenuous economic recovery and high 
unemployment, Congress and the Administration should be 
untangling the complex web of statutes and regulations that are 
strangling our productive resource sectors of our economy. The 
National Ocean Policy does the exact opposite by adding 
complexity and jurisdictional ambiguity. Congress, the states, 
and the private sector should have a more meaningful role in 
the development and implementation of such far-reaching 
policies for state and Federal waters and upland resources.
    I really appreciate the opportunity to comment. For the 
record I do have some additional backup that adds to your 
emphasis on our Constitution and the importance of our 
resources and our economy.
    Thank you for the opportunity.
    Mr. Young. Thank you, Mr. Rogers.
    [The prepared statement of Mr. Rogers follows:]

             Statement of Rick Rogers, Executive Director, 
                Resource Development Council for Alaska

    Good morning Members of the Subcommittee. My name is Rick Rogers, 
Executive Director of the Resource Development Council for Alaska 
(RDC). RDC is a statewide membership-funded non-profit trade 
association representing the combined interest of the Forestry, 
Fishing, Tourism, Mining, and Oil and Gas industries in Alaska. Our 
membership is truly a broad cross section of Alaska businesses, 
including the aforementioned industries as well as local communities, 
all twelve Alaska Native Regional Corporations, organized labor, 
utilities and support businesses that recognize the important role 
resource development plays in our economy. I have submitted a copy of 
our most recent annual report for the record.
    The National Ocean Policy will have a disproportionate impact on 
Alaska's resource dependent industries and our economy as a whole. It 
is appropriate the Subcommittee chose to hold a field hearing here in 
Alaska. At approximately 34,000 miles, Alaska has more coastline than 
that of all other states in our nation combined.
    The National Ocean Policy adds uncertainty and anxiety to an 
already cumbersome and complex regime of state and federal permitting 
and oversight. Increased bureaucracy could hamper the already slow 
processes with no added benefit to the environment. In our view the 
Coastal Marine Spatial Planning/Regional Planning Body structure is an 
unauthorized new regulatory program that suggests a federal level ``top 
down'' approach to management resources with minimal local input.
    The ecosystem-based management goal requires a vast amount of 
scientific data to be fully implemented. The lack of sufficient 
information is often the basis for third party legal claims by 
Environmental Non-government Organizations (eNGOs) to block development 
projects and their corresponding jobs. Natural resource managers need 
to use best available data to move forward and make the best decisions 
with information available. Ecosystem Based Management runs the risk of 
``paralysis-by-analysis.''
    The National Ocean Policy's stated goal of reaching to onshore 
activities adds to the uncertainty and anxiety for upland land use and 
resource development. Section 404 of Clean Water Act and ubiquitous 
nature of wetlands means upland activities are already highly regulated 
in Alaska. Ever increasing and stringent clean air standards are 
already burdensome offshore and inland. A plethora of petitions to list 
additional species under the Endangered Species Act on and offshore add 
burden to landowners and resource industries. The hardrock mines in 
Alaska require over 60 State and Federal authorizations to proceed with 
development. The National Ocean Policy adds yet another hurdle to 
overcome, and may serve to provide an additional platform for third 
party eNGOs to litigate against projects that aooear to lack the 
informational requirements or expectations for the National Ocean 
Policy.
    RDC is concerned that Coastal and Marine Spatial Planning may lead 
to far reaching use restrictions on marine waters that will over-ride 
the social and economic needs of Alaskans. Broad swaths of submerged 
lands could be restricted in exclusionary zones for a nebulous national 
agenda of ``ecosystem-based-management''. Even if restricted zones were 
more modest in size and scope, use restrictions in strategic marine 
corridors necessary for resource transport and shipping could be 
devastating to our marine-dependent industries.
    One of the key justifications for Coastal and Marine Spatial 
Planning is to resolve conflict among diverse resource interests, yet 
RDC members representing Mining, Tourism, Forestry, Oil and Gas, and 
Fisheries interests are firmly aligned. These industries are all 
concerned that NOP will create far more difficulties than it will 
resolve.
    RDC is concerned that funds used to implement National Ocean Policy 
will come at the expense of congressionally-mandated activities. RDC's 
member companies require mandatory permits and often federal leases to 
operate, and declining federal resources should not be expended on 
National Ocean Policy at the expense of these congressionally mandated 
obligations. RDC members also require the best scientific data to 
address the impacts of their activities and funding diverted to 
National Ocean Policy could come at the expense of needed scientific 
efforts.
    We urge Congress to maintain an integral role in these broad 
efforts to change the way ocean and coastal resources are managed, and 
the power of appropriation should be considered in restraining the 
premature implementation of the National Ocean Policy. Congressional 
oversight is needed to ensure implementation of the National Ocean 
Policy does not constrain the ability of federal agencies to fulfill 
their congressional mandates to adjudicate needed federal permits and 
leases.
    RDC is concerned with the process being used to roll out this far-
reaching policy. RDC has repeatedly requested meaningful stakeholder 
engagement without the suspected bias toward conservation and blocking 
responsible resource access and development. These concerns are 
underscored by the fact that Regional Planning Bodies charged with 
developing zoning plans will be comprised solely of government 
officials.
    Detailed economic analysis of impacts of the policy should be 
completed and available for full public and Congressional review before 
policy implementation. The Handbook for Coastal and Marine Spatial 
Planning must be subject to public input, review, and comment before 
implementation.
    We have urged the National Ocean Council to utilize pilot projects 
in geographic areas where NOP and CMSP has broad acceptance, before 
large swaths of ocean and marine areas, such as Alaska, have this 
policy imposed upon them.
    In this time of tenuous economic recovery and high unemployment, 
Congress and the administration should be untangling the complex web of 
statutes and regulations that are strangling our productive resource 
sectors of our economy. The National Ocean Policy does the opposite by 
adding complexity and jurisdictional ambiguity. Congress, the states, 
and the private sector should have a more meaningful role in 
development and implementation of such far-reaching policies for state 
and federal waters and upland resources.
    Thank you for the opportunity to comment on this far-reaching 
initiative. We thank the members of this Subcommittee for watching out 
for the best interests of Alaskans and all Americans.
Additional Background to Augment RDC verbal testimony.
    Natural resources are vital to the economic survival of Alaska and 
its residents. In part, Alaska was granted statehood due to our vast 
natural resources; the federal government expected Alaska to utilize 
its bounty of natural resources to build and sustain its economy. 
Alaska's constitution includes a unique provision, Title 8, the 
preamble of which states ``It is the policy of the State to encourage 
the settlement of its land and the development of its resources by 
making them available for maximum use consistent with the public 
interest.'' To fulfill the vision of Alaska's Constitution, we must 
have access to our resources, and avoid uncertainty and unnecessary 
regulations that offer no added benefit to the environment.
    The National Ocean Policy will have a disproportionate impact on 
Alaska's resource-dependent industries and our economy as a whole. It 
is appropriate the Subcommittee chose to hold a field hearing here in 
Alaska. At approximately 34,000 miles, Alaska has more coastline than 
that of all other states in our nation combined.
    RDC members know that Alaska's economy is based on responsible 
resource development conducted in accordance with existing local, 
state, and federal environmental protections and laws. Alaskans must 
continue to have access to our valuable and traditional resources. The 
responsible development of these resources creates jobs in communities 
throughout Alaska, many of which have few other jobs available. Many of 
these communities will disappear if overly burdensome regulations are 
added to existing and new projects.
    Alaska fisheries provide over half of the commercial seafood 
harvested in U.S., and these sustainably managed fisheries are a model 
for the world. Oil and Gas reserves in the Beaufort/Chukchi Seas alone 
could result in 26 billion barrels of oil and 32 trillion cubic feet of 
natural gas over next 50 years, yielding 54,700 new jobs, $145 billion 
in payroll, and $193 billion in government revenue. All Alaska 
industries, forestry, tourism, oil and gas, fisheries and mining, are 
highly dependent on ocean access and marine transportation.
    For the record, RDC submits four publication summaries highlighting 
the economic significance of oil and gas, mineral, tourism and 
fisheries resources. Unfortunately we do not have a similar report of 
our timber industry, except to report that it is a mere shadow of its 
former self, having precipitously declined due to what RDC views as 
failed federal public land policy constraining timber supply. The 
decline of the timber industry in Alaska highlights our need to be ever 
vigilant regarding the unintended consequences of policy initiatives 
such as the National Ocean Policy and Coastal and Marine Spatial 
Planning.
    The policy raises significant concerns from the fisheries community 
regarding the future role of the stakeholder driven Regional Fishery 
Management Councils. The North Pacific Fishery Management Council is a 
model for sustainable and adaptive management of this renewable 
resource. The old adage, ``if it isn't broke, don't fix it'' should 
apply and it needs to be abundantly clear that the decision authority 
of the stakeholder driven Regional Fisheries Management Councils is not 
compromised by a new National Ocean Policy structure. The Regional 
Fishery Management Councils are working well and should not be coopted 
by a new regional planning and management structure.
    RDC is concerned that Coastal and Marine Spatial Planning may 
impose disproportionate restrictions on the ability of Alaskans to have 
a balanced and robust resource based economy. Consider that 58.6% of 
uplands in Alaska are federally managed lands, 65% of which are in 
restrictive conservation system units such as parks, Wilderness Areas, 
refuges and wild and scenic rivers. For the record, we have submitted 
an RDC publication entitled ``Who Owns Alaska'' which highlights the 
dominance of federal management of uplands in Alaska with priorities 
that are often in direct conflict with the economic interest of 
Alaskans.
    RDC shares the concerns expressed by Alaska Governor Sean Parnell 
and the six other Governors in the Outer Continental Shelf Governors 
Coalition in their letter to President Obama dated March 13, 2012. In 
that correspondence, the Governors raise concerns of unintended 
consequences for all types of energy development. RDC notes that the 
same unintended consequences are likely to also affect fisheries, 
forestry, mineral development and tourism activities.
    RDC has weighed in on this important policy initiative several 
times. We have asked that the National Ocean Council improve 
coordination of existing protection measures, such as the Clean Water 
Act, the National Environmental Policy Act, and the Magnuson-Stevens 
Fishery Conservation Act instead of adding another layer of 
bureaucracy. In reference to the other Strategic Action Plan objectives 
not addressed in RDC verbal testimony, included are copies of two 
detailed letters RDC wrote to the NOC in 2011, and our most recent 
written input on March 28, just last week.
Attachments submitted for the record include:
2011 Annual Report of the Resource Development Council for Alaska. 
        Available online at http://akrdc.org/membership/annualreport/
        annualreport2011.pdf
Economic Report Overview, Potential National-Level Benefits of Oil and 
        Gas Development in the Beaufort and Chukchi Sea, University of 
        Alaska Institute of Economic Research and Northern Economics. 
        Available online at http://www.northerneconomics.com/pdfs/
        ShellOCS/National%20Effects%202-page%20brochure%20FINAL.pdf .
The Economic Benefits of Alaska's Mining Industry, Alaska Miners 
        Association, January 2012. http://www.alaskaminers.org/
        mcd11sum.pdf
The Seafood Industry in Alaska's Economy, Prepared by Northern 
        Economics for the Marine Conservation Alliance, available 
        online at http://www.marineconservationalliance.org/wp-content/
        uploads/2011/02/SIAE_Feb2011a.pdf
Alaska Visitor Statistics Program VI, Summer 2011, Executive Summary, 
        Prepared by The McDowell Group for Alaska Department of 
        Commerce, Community and Economic Development. Available online 
        at http://www.commerce.state.ak.us/ded/dev/toubus/pub/2011AVSP-
        ExecSummary-StandAlone.pdf
Who Owns Alaska, A Special Issue of Resource Review, A periodic 
        publication of the Resource Development Council for Alaska. 
        Available online at http://akrdc.org/newsletters/2009/
        whoownsalaska.pdf
RDC written comments to the National Ocean Council dated April 29, 
        2011, July 1, 2011 and March 28, 2012.
                                 ______
                                 
    Mr. Young. Ms. Madsen.

STATEMENT OF STEPHANIE MADSEN, NATIONAL COMMITTEE CHAIR, UNITED 
                      FISHERMAN OF ALASKA

    Ms. Madsen. Thank you, Mr. Chairman and members of the 
Subcommittee for taking time to hear our State's concerns about 
the Administration's National Ocean Policy. I'm Stephanie 
Madsen, the Executive Director of the At-sea Processors 
Association, a trade association representing fishing companies 
that participate in Federally managed ground fisheries in 
waters off Alaska.
    Today I am testifying on behalf of the United Fishermen of 
Alaska, an umbrella organization composed of 37 Alaska 
commercial fishing organizations, whose members account for 
more than half of the seafood landed annually in the United 
States.
    Alaska's commercial fishing industry has participated at 
every step of the public process as the Administration has 
rolled out its NOP, which includes the ocean zoning concept. To 
date, virtually none of the concerns that we've articulated 
have been addressed.
    My testimony will focus on three key areas of the NOP 
initiative. One, the threat to NOAA's Fisheries' core science 
programs from the diversion of funds to an unauthorized 
initiative; 2, the usurpation of the role of expert fishery 
managers to manage fishery resources by a new Federal 
bureaucracy comprised; and 3, the possible proliferation of 
unnecessary and unwise regulations under the NOP process and 
the resulting threat posed to Alaska's largest private sector 
private, the commercial fishing industry.
    Alaska's commercial fishing industry appreciates the 
efforts of Chairman Hastings, Subcommittee Chair Fleming, Mr. 
Young and other members of the Natural Resources Committee, as 
well as our Senator Murkowski, in continuing to press the 
Administration to disclose how much money is actually being 
spent on various Federal agencies on NOP implementation. The 
linchpin of successful fisheries management in Alaska is good 
science. We are already worried about possible impacts on 
fisheries science and management programs given the grim budget 
picture.
    The NOP initiative, which is diverting untold sums from 
NOAA and other agencies, further reduces the resources 
available for NOAA Fisheries. Using a precautionary approach to 
fisheries management, as scientific uncertainty from lack of 
research goes up, the allowable harvest level is reduced, which 
means fewer fishing and fish processing jobs and less income 
for those still working. We cannot afford to continue to divert 
funding from NOAA Fisheries' core science programs to support a 
grandiose NOP initiative.
    Much of what is contained in the NOP initiative was 
contemplated in bills introduced in the 108th through the 111th 
Congresses. Congress repeatedly refused to enact this 
legislation. Now, without congressional authorization or 
dedicated appropriations, the Administration states that NOP/
CMSP funding will come from repurposing existing resources. We 
do not favor repurposing core NOAA Fisheries' programs to 
establish Federally dominated Regional Planning Bodies that 
could supplant the regional fishery management councils. It is 
a hollow argument advanced by the Administration that 
repurposing funds creates efficiencies when, at least for 
fisheries management, it creates confusing, overlapping, 
jurisdictional lines and duplicates existing processes.
    Until Congress acts to authorize NOP/CMSP activities and 
provides the necessary funding amounts, we urge Congress at a 
minimum to prohibit the expenditure of Federal funds to 
establish Regional Planning Bodies or to develop any plans 
established within the scope of the E.O.
    Since its inception, the NOP initiative has called for 
establishing eight Regional Planning Bodies composed of 
primarily Federal officials with some provision for state, 
local and tribal interests. The Administration opposes 
including members of the public on RPBs to avoid triggering the 
Federal Advisory Committee Act. These RPBs are tasked with 
developing CMS plans for sustainable use and long-term 
production of the ocean, our coasts, and the Great Lakes.
    With regard to fisheries, the Commerce Department is 
obligated to integrate fishery management regulations so that 
they're consistent with elements of any Federally developed 
CMSP plan. All members of the North Pacific Council, our 
regional council, are required by law to be knowledgeable and 
experienced in the fisheries under council jurisdiction. The 
Federal fishery management process in Alaska has been an 
unqualified success. What would an RPB with no fisheries 
expertise have over the Fishery Management Council?
    The commercial fishing industry has asked repeatedly in 
public comments and meetings with Administration officials for 
assurances that CMS plans will not affect fishing activities. 
Those calls have gone unheeded.
    I think my written testimony is complete in there, but five 
minutes goes fast. I guess, Congressman Young and Senator 
Murkowski, under a plain reading of the NOP, provisions of the 
CMS plans can affect fishing activities. By Executive Order the 
Secretary of Commerce is required to promulgate regulations to 
good effect in set provisions.
    If the Administration wants to convince the commercial 
fishing industry that it does not intend to supersede the 
Regional Fishery Management Councils' authority, it should 
explicitly exempt fishing-related provisions from CMS plans.
    That concludes my testimony, Mr. Chairman. Thank you again 
for the opportunity to testify. I'd be happy to answer any 
questions.
    Mr. Young. Thank you, Ms. Madsen.
    [The prepared statement of Ms. Madsen follows:]

     Statement of Stephanie Madsen, At-sea Processors Association, 
              on Behalf of the United Fishermen of Alaska

    Thank you, Mr. Chairman, and Members of the Subcommittee for taking 
the time to travel to Alaska to hear our State's concerns about the 
Administration's National Ocean Policy (NOP).
    I am Stephanie Madsen, the executive director of the At-sea 
Processors Association (APA), a trade association representing fishing 
companies that participate in federally managed groundfish fisheries in 
waters off Alaska. Today, I am testifying on behalf of the United 
Fishermen of Alaska (UFA), an umbrella organization composed of 37 
Alaska commercial fishing organizations whose members account for more 
than half the seafood landed annually in the United States.
    Alaska's commercial fishing industry has participated at every step 
of the public process as the Administration has rolled out its NOP, 
which includes the ocean zoning concept of Coastal and Marine Spatial 
Planning (CMSP). To date, virtually none of concerns that we have 
articulated have been addressed. The Administration appears intent on 
pursuing a pre-determined course of action without regard for the views 
of the public, and just as troubling, represents a course of action 
that lacks legislative authority and expends federal funds intended for 
other purposes.
    My testimony will focus on three key areas of the NOP initiative: 
1) the threat to NOAA Fisheries' core science programs from the 
diversion of funds to an unauthorized NOP/CMSP initiative; 2) the 
usurpation of the role of expert fishery managers to manage fishery 
resources by a new federal bureaucracy comprised of individuals without 
relevant expertise, and 3) the possible proliferation of unnecessary 
and unwise regulations under the NOP/CMSP process and the resulting 
threat posed to Alaska's largest private sector employer--the 
commercial fishing industry.
Budgetary and Fiscal Impacts of the NOP/CMSP Initiative
    Alaska's commercial fishing industry appreciates the efforts of 
Chairman Hastings, Subcommittee Chairman Fleming, Mr. Young, and other 
Members of the Natural Resources Committee, in continuing to press the 
Administration to disclose how much money is being spent by various 
federal agencies on NOP implementation. The linchpin of successful 
fisheries management in Alaska is good science. We are already worried 
about possible impacts on Congressionally-authorized federal fisheries 
science and management programs given the grim budget picture. The NOP 
initiative, which is diverting untold sums from NOAA and other 
agencies, further reduces the resources available for NOAA Fisheries' 
science and management programs. Using a precautionary approach to 
fisheries management, as scientific uncertainty from lack of research 
goes up, the allowable harvest level is reduced, which means fewer 
fishing and fish processing jobs and less income for those still 
working. We cannot afford to continue to divert funding from NOAA 
Fisheries' core science programs to support a grandiose NOP initiative.
    From the issuance of the NOP Executive Order 13547 and the Final 
Recommendations of the Ocean Policy Task Force in July 2010 to the 
Draft National Ocean Policy Implementation Plan published in January 
2012, the NOP initiative has consistently called for a costly new 
expansion of federal ocean-related programs. The draft NOP 
implementation plan issued in January, for example, proposes 53 federal 
government actions and nearly 300 milestones. And, of course, the NOP/
CMSP program establishes a new federal bureaucracy by creating a 
National Ocean Council, a Governance Coordinating Committee, eight new 
Regional Planning Bodies each consisting of two dozen federal 
officials, and myriad other committees and consultative bodies.
    Much of what is contained in the NOP initiative was contemplated in 
bills introduced in the 108th through the 111th Congresses. Congress 
repeatedly refused to enact this legislation. Now, without 
Congressional authorization or dedicated appropriations, the 
Administration states that NOP/CMSP funding will come from 
``repurposing'' existing resources. We do not favor ``repurposing'' 
core NOAA Fisheries science and management programs to establish 
federally dominated Regional Planning Bodies that could supplant the 
stakeholder driven regional fishery management councils. It is a hollow 
argument advanced by the Administration that repurposing funds creates 
efficiencies when, at least for fisheries management, it creates 
confusing, overlapping jurisdictional lines and duplicates existing 
processes.
    Until Congress acts to authorize NOP/CMSP activities and provides 
the necessary funding amounts, we urge Congress at a minimum to 
prohibit the expenditure of federal funds to establish Regional 
Planning Bodies or to develop any plans identified within the scope of 
E.O. 13547.
NOP/CMSP Seeks to Usurp the Role of Regional Fishery Management 
        Councils
    Since its inception, the NOP initiative has called for establishing 
eight Regional Planning Bodies (RPBs) to be composed primarily of 
federal officials with some provision for state or local government 
representatives, and tribal interests. The Administration opposes 
including members of the public on RPBs to avoid triggering 
transparency requirements under the Federal Advisory Committee Act 
(FACA). RPBs are tasked with developing ``National Ocean Council-
certified regional CMS Plans for the sustainable use and long-term 
protection of the ocean, our coasts, and the Great Lakes.'' Provisions 
of such plans are to be implemented by regulation. Moreover, all 
federal agencies are required under the NOP program to ``endeavor, to 
the maximum extent possible, to integrate their actions with those of 
other partners to a CMS Plan.'' With regard to fisheries, the Commerce 
Department is obligated to ``integrate'' fishery management regulations 
so that they are consistent with elements of any federally developed 
CMS Plan.
    Federal fisheries off Alaska are managed currently under the 
authority of the Magnuson-Stevens Act, or MSA. The North Pacific 
Fishery Management Council is one of eight regional councils 
established under the MSA, and it is charged with developing management 
measures for fisheries occurring from 3 to 200 miles off the coast of 
Alaska. The North Pacific Council is composed of 11 voting members, 
which includes one federal official, three state officials, and seven 
private citizens nominated by Governors and appointed by the Secretary 
of Commerce. All Council members are required by law to be 
knowledgeable of, and experienced in, the fisheries under Council 
jurisdiction. The Councils involve affected users directly in the 
decision making process. The federal fishery management process in 
Alaska has been an unqualified success. All federally managed fish 
stocks in the Alaska region are harvested at sustainable levels, and a 
comprehensive set of regulations is in place to minimize fishing 
impacts on the environment. The management process is noted for its 
transparency and for the opportunities afforded to all stakeholders to 
have their views given due consideration.
    The commercial fishing industry has asked repeatedly in public 
comments and meetings with Administration officials for assurances that 
CMS Plans will not affect fishing activities. Those calls have gone 
unheeded. We are left to conclude from a plain reading of the documents 
giving force to the NOP that the Secretary of Commerce will be 
obligated to promulgate new rules, or amend existing rules, to ensure 
implementation of any provisions of CMS Plans that might relate to 
fishery closures, mitigation measures, or catch limits.
The Proliferation of New Regulations Under the NOP Threatens Commercial 
        Fishing and Fish Processing Jobs--Alaska's Largest Private 
        Employment Sector
    Regional plans developed by RPBs that are populated by dozens of 
federal officials and certified by the Cabinet-level National Ocean 
Council will be broad in scope and receive substantially less public 
input than management measures developed through the MSA regional 
fishery management council process. The various NOP/CMSP documents 
issued by the Administration contain contradictory statements that this 
program anticipates no new regulations and that all federal agencies 
are obligated to issue or amend regulations to be as consistent as 
possible with regional CMS Plans. Given that the NOP is given force 
through Presidential decree, we fully expect federal agencies to follow 
specific guidance to conform to provisions of regional plans.
    Fisheries regulations are designed most often to address complex 
resource management problems. Almost all management rules have 
allocation impacts on fishery participants and even with the benefit of 
detailed analysis cannot always avoid unintended consequences. In 
short, even in a fisheries management system populated with highly 
qualified resource management scientists and managers with decades of 
experience and benefiting from expert analysis and the knowledge 
derived from stakeholders' input at every meaningful stage of the 
regulatory process, it is still difficult to minimize economic harm and 
avoid unintended environmental consequences.
    It is not difficult to envision a provision in a CMS Plan that 
calls for a sizable area closure to fishing, or network of closed 
areas. The purpose could be to create marine reserves or to set aside 
areas for another commercial activity. How informed will an RPB be--
especially one composed primarily of federal agency officials without 
fisheries experience--about the effects of displacing fishing activity? 
Will there be an analysis of the economic consequences of losing access 
to valuable fishing grounds? Will there be a sophisticated analysis of 
the effects on habitat, bycatch, etc. if fishing activity is 
redirected? Given the projected scope of CMS Plans and the lack of 
fisheries experience of those voting on CMS Plan provisions, it is 
highly unlikely that conservation benefits will be realized but highly 
likely that jobs and income will be lost. Where is the public policy 
rationale for creating jurisdictional confusion where none exists, 
duplicating federal regulatory processes, and, most importantly, 
distancing stakeholders from federal decisions that affect their 
livelihoods?
    On this topic, the Administration argues that the NOP does not 
confer new authority upon federal agencies but simply operates within 
existing statutory requirements. We agree. However, existing law, most 
notably for our purposes Section 304 of the MSA, confers authority upon 
the Secretary of Commerce to promulgate fishery management rules when 
the regional fishery management councils do not act. Under E.O. 13547, 
the Secretary is obligated to issue, or amend, regulations to the 
maximum extent possible to give effect to National Ocean Council-
certified CMS Plans. In fact, many NOP advocates are environmental 
organizations that favor dismantling the regional fishery management 
council system. Their intent is for the NOP processes to override the 
regional fishery councils and hand over decision making to federal 
agencies.
    Under a plain reading of the NOP, provisions of CMS Plans can 
affect fishing activities, and by Executive Order, the Secretary of 
Commerce is required to promulgate regulations to give effect to such 
provisions. If the Administration wants to convince the commercial 
fishing industry that it does not intend to supersede the regional 
fishery management councils' authority, it should explicitly exempt 
fishing-related provisions from CMS Plans.
    That concludes my testimony, Mr. Chairman. Thank you, again, for 
the opportunity to testify. I am glad to answer any questions.
                                 ______
                                 
    Mr. Young. According to my rules, I always look to other 
members of the panel to ask questions first and I'll ask 
questions last.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman, and thank you 
to the members of the panel. I appreciate the perspective.
    As I look out, we've got representation from all sectors of 
the industries that are making things happen in the State. It's 
more than a little bit disconcerting to hear that the unifying 
theme is that there is no communication.
    Ms. Madsen, to hear you state that UFA has been involved 
every step of the way and yet you feel that there has been no 
response to your input, no response to your participation in 
this process and yet recognizing the industry that UFA is 
involved with, that's more than a little bit disconcerting.
    Representative Joule, you have indicated that within the 
Northern Waters Task Force report that one of the prime 
considerations or recommendations from that was the need for 
communication. I think this is where we're all coming from with 
this oceans policy, this Executive Order, this dictate from on 
high in Washington, D.C., coming at and being essentially 
forced upon a state like Alaska without that two-way 
communication going back and forth.
    I guess the first question I would ask would be directed to 
you, Representative Joule, and that is whether or not you 
believe that the principles, the considerations that have been 
outlined in the Northern Waters Task Force report can be 
coordinated with the proposal of the National Ocean Policy 
Implementation Plan or whether or not you think the efforts 
that are under way with the task force will be, I guess, 
compromised under a proposal such as being considered.
    Mr. Joule. I don't know if I'm going to get right to your 
question, Senator Murkowski.
    When we put this recommendation forward to establish an 
Arctic Policy Commission, this was with the recognition that 
other countries around the circumpolar north had put together 
their policy plans for their countries and for their provinces 
in the case of Canada. The United States and Alaska have not 
done so.
    Former President Bush initiated a directive before exiting 
his presidency. That policy is there, but what we haven't seen, 
Senator, is any plan of implementation of that policy and we 
feel that this is an opportunity for our state with our 
stakeholders with an eye on the future to put our policy 
together prior to the Arctic Council grabbing the chair and 
Canada and then again the United States years later.
    We did that independent of the National Oceans Council or 
the Coastal Marine Spatial Planning. I guess we want to have 
the ability with Alaskans, together with this state 
administration and somebody from the Federal Government, to sit 
with us and begin that process.
    Senator Murkowski. But to this point in time, from what I'm 
hearing from all of you, that level of communication, that sit-
down, that's not happening.
    Mr. Vincent-Lang, let me ask you. From the State's 
perspective, you have been very clear in stating the State of 
Alaska's concern and opposition. I think the comment that we 
need more resources directed, not necessarily more rules, some 
set out quite aptly. But it's my understanding from what you 
have outlined that in fact there has been no coordination. 
There has been no effort to attempt to work together, state to 
Federal, that it has instead been a directive to the State that 
this is in fact what it will be.
    The question that I would have you focus on is: Given what 
you have received from the Federal level, is there any effort 
to work with the existing authorities in the state based on 
what you have received to date from this Executive Order?
    Mr. Vincent-Lang. Senator, through the Chair, the State 
really feels like we've been a stakeholder in this process, not 
being treated as a sovereign entity in this entire process. 
We've really been relegated to providing written comments on a 
variety of different documents rather than being treated as an 
equal partner in the development, for instance, of the nine 
strategic plans.
    So we constantly are forced into the position of, just like 
anybody else, providing comments rather than being treated as a 
sovereign entity with sovereign roles and responsibilities and 
authorities in this process. We've asked some pretty 
fundamental questions regarding this National Ocean Policy. 
We've asked them in several letters. I think Mr. Young put them 
into the record here. We still don't feel we've gotten adequate 
answers or adequate--or that the issues we've raised have been 
addressed throughout that entire process. So as such, we don't 
feel that we've been treated as an equal entity.
    We do appreciate that the National Ocean Council is 
considering making the decision process consensus based in 
Alaska, but they also acknowledge that failure of reaching a 
consensus will result in minority reports and, of course, the 
State is a minority member of that body, and then subsequently 
the decision will be made 3500 miles away in D.C. by the 
National Ocean Council.
    So, again, we're very troubled with that, that we're not 
being treated as an equal in this process and will ultimately 
potentially be treated as a minority as this moves forward.
    Senator Murkowski. Of course, Mr. Chairman, that's what 
we're all concerned about here is the diminishment of the 
State's role most certainly.
    One final question and I'll direct this to you, Mr. Rogers. 
We recognize that within the oil and gas sector it's not easy; 
it's not cheap to do business here in the State of Alaska. It's 
not cheap or easy to do it here in this country. But let me ask 
what happens to the added cost when you inject a level of 
uncertainty as this National Oceans Policy Initiative, the 
CMSP, would put in play?
    When you add that level of uncertainty to an already 
uncertain industry, trying to figure out what's going on with 
taxes, what is happening with national and international 
pricing, give me your 30,000-foot view of the potential impact 
of a policy like this on an industry that we're so heavily 
reliant on here in the State of Alaska.
    Mr. Rogers. Thanks for the question, Senator.
    Through the Chair, the debate here in Alaska, as you well 
know in Juneau this year, is on the competitiveness of our oil 
and gas industry and how we're competing for capital on a 
global scale. I think, to your question, the added uncertainty 
and the added burden that any of these policies put on that 
industry or other resource industries in Alaska just adds to 
reducing the competitive nature of Alaska with respect to other 
jurisdictions.
    For example, last year a delegation of elected leaders and 
business leaders went on a tour to Norway to look at how Norway 
does business in oil and gas. Unfortunately I was not fortunate 
to be among them, but I did learn when they came back and 
reported. One thing that really struck me is I'm told that in 
Norway from start to finish it takes them about six months to 
permit off-shore, very complex oil and gas exploration and 
development activities.
    Here in Alaska, as you know, we had Federal leases on the 
OCS in 2008 and the leaseholders have yet to drill a single 
exploration well. Now, we're seeing progress and thanks in much 
part to your help we're getting closer and we're encouraged, 
but adding more burden to that already difficult and complex 
structure is not going to make Alaska more competitive. It's 
going to reduce the level of resource development in our state.
    As many economists have already studied, both from ISER and 
other organizations, oil and gas and resource development is a 
key underpinning to our economy. So all of Alaska will suffer 
if we add more burdens and then make our state less 
competitive.
    Senator Murkowski. Thank you.
    Mr. Chairman, I thank you for the opportunity to be part of 
this field hearing this morning. I appreciate what the 
witnesses have provided. I'm not going to be able to stay for 
the second panel. I know, I'm going to have to let you carry 
the burden here. I've got another scheduling item that I must 
attend to. But I thank you for this.
    I think this is extraordinarily important that we hear from 
not only the State, the Legislature, the industries that are 
the underpinning of our state's economy and fully understand 
how the impact of this wrong-handed proposal coming out of the 
Administration could negatively impact our success here in the 
economy.
    So I appreciate your focus on this.
    Mr. Young. Thank you, Senator, for joining us. It was a 
pleasure to have you for a short period of time. If nothing at 
all, I'll see you this afternoon on the Park Service issue.
    Senator Murkowski. Thank you.
    Mr. Young. Thank you, Senator. You're excused.
    This is to the panel. Have any of you been, other than, 
say, commenting, have any of you been asked to appear or sit 
down and discuss this and who's heading this thing up? Does 
anybody know?
    Ms. Madsen. Congressman Young, we have had conversations 
and they have traveled to Alaska. They have met with the 
seafood industry.
    Mr. Young. Who are ``they''?
    Ms. Madsen. CEQ.
    Mr. Young. CEQ. But they're not even--you know, we had them 
before the Committee. They will not tell us who's the driving 
force other than the President behind this and where they're 
getting their money. That's why, Madam Senator, I hope you're 
aware on your committee you cut their funds off, squeezed their 
you know what until they start explaining where they're taking 
the money from.
    I know with NOAA, Ms. Madsen, I believe they're not going 
to have, for instance, a stock assessment every year like they 
should. They're going to now try to go to every two or three 
years. How does that affect the industry and the science which 
is so important?
    Ms. Madsen. Well, you've hit the nail on the head. I think 
that I just heard this week that fortunately, thanks to Senator 
Murkowski and having the Secretary in front of you, I think 
they found a million dollars for our stock assessment this 
year. But that's one year. The continuing diversion of funds, I 
think we've got a Band-Aid this year.
    But as I mentioned, if there's any uncertainty in the 
science, then we're going to get lower quotas, and that affects 
all of us. Again, I appreciate your vigilance in making sure 
that they come to the table and explain to you how they're 
getting these funds and using them.
    Mr. Young. Reggie, you did it right. You got the 
stakeholders involved. From what I hear from all of you and 
what our testimony back in D.C. is, they have not communicated 
with the State other than say: Give comment. They haven't had 
any stakeholders at the table. They're coming out with these 
grandiose ideas and then say, what do you feel about it? Yet 
they don't listen to you, if I understand it. They've never 
listened to anything you've suggested; is that correct.
    Mr. Joule. Mr. Chairman, when we were back in Washington, 
D.C. recently--when I say ``we,'' I'm talking about Speaker 
Chenault, Representative Fairclough, Representative Saddler, 
myself--we were back there for the purpose of trying to drum up 
support for the passage of the ANWR legislation.
    Mr. Young. We did that in the House. The Senate is a little 
neglectful.
    Mr. Joule. Yes, you did, once again, for the twelfth time.
    We did meet with some of the folks from the National Oceans 
Council. Those of us from Alaska that went back there together 
met with them and the issues that came up were pretty clear. 
One, we raised the same issue. Congress is not supportive of 
this effort. Where are you getting your funds? What's going to 
be the buy-in? How does this all work?
    Those answers, I think, were fairly vague other than to say 
it's going to come from across agencies. But I think that the 
group that I was with were very pointed in their discussions 
with them that, like what's being said here, conveyed the 
concerns with what was going on with the National Oceans 
Council and in particular the Coastal Marine Spatial planning.
    Mr. Young. Again, my understanding, this is not only this 
area. When we bring outside agencies in, we became a state with 
103 million acres of land. We had the Native Land Claim 
Settlement Act with 44 million acres of land.
    If they implement this policy, Mr. Lang, do you believe 
under this policy that we will lose control over our state 
land?
    Mr. Vincent-Lang. Mr. Chairman, I believe there's a 
potential for that, yes, because I think that the decision-
making processes are basically being governed by potential 
Federal bureaucracies that are going to numerically dominate 
these regional planning boards. In the event their consensus is 
not reached at the local level or the regional level, that 
decision process will be sent back to Washington, D.C. by CEQ 
to make decisions.
    So I think there's a real potential that especially as this 
planning effort potentially goes into state waters and upland 
into areas of territorial into navigable waterways, it has a 
real potential to affect the state authority to govern its 
activities within its jurisdictions.
    Mr. Young. Again, for the audience, CEQ was created by 
Congress. I don't know what we were thinking, but it's under 
the President. It really hands the President, this group right 
here, control over the State of Alaska regardless of the 
President. I want everybody to know this is not partisan. This 
is in fact being proposed by this President, but it gives the 
next President the same jurisdiction over the utilization of 
our lands and to me that's quite disturbing.
    I would like to see this--if this thing was to go forth, 
and I was serious with Senator Murkowski, a letter should be 
sent into the appropriators to try to eliminate the dollars. If 
we have to duplicate from every agency that's under this 
provision that we stand on this issue until we find out what 
they're trying to achieve.
    I feel sort of like the father that's the father of a 
beautiful baby boy and has great potential--and my staff is 
worried about where this is going. But he ends up in jail. We 
created the 200-mile limit. You know, up until that time the 
State had 12 miles of our waters and the rest was international 
waters. Think about that, international waters.
    We created this for an economic zone. Now we have an 
economic zone and we lost nine miles of our water and we kept 
three miles. Now they're taking three miles away from us and 
adding it to the Federal waters under this program, which takes 
away the right of the State. I'm thinking, what a mistake in 
the way this has happened. ``They'' being the Federal 
Government and the Congress that supported them and funded 
them, maybe we ought to go back to the drawing board and just 
defund the whole operation.
    Mr. Rogers, we all know the answer to this, but how many 
permits do you think we have to go through now for any 
resources in Alaska? Do you have a count of how many permits? 
Let's say for mining.
    Mr. Rogers. Yeah, Congressman Young, it's between 60 and 
70, for example, for large hardrock mining projects in Alaska, 
like Fort Knox or some of those. That's a combination of state 
and Federal authorizations and permits. So it's not a simple 
process. It's very complex; it's very thorough.
    I guess our point is we don't need to add additional 
complexity and layers onto that already. We should be trying to 
simplify it or at least streamline it and make it more 
efficient.
    Mr. Young. You just added something. I like that term. 
There's nothing in this that says there will be less 
regulations. We have to have 55 permits and after you get those 
permits, these people might say, no; is that correct?
    Mr. Rogers. It may be correct. Congressman, it's very 
difficult to truly conceptualize how this would play out. But 
on the one hand you read the policy, they talk about not adding 
any additional regulations and yet they talk about convening 
groups to do legal analysis to figure out what regulations may 
be necessary or what new statutes. So it seems kind of 
duplicitous in what they're trying to achieve.
    Mr. Young. They had a hearing up here, I believe, last 
December. When was that hearing? Were any of you involved in 
that hearing? You were? Who was the panel? I mean, not you 
guys. Who was up here.
    Mr. Vincent-Lang. I think the Alaska one was held by a lady 
from the Department of the Interior, like an Under Secretary. I 
can't remember her name.
    Mr. Young. None of the rest of you participated.
    Ms. Madsen, I will tell you if I was a suspicious person, 
with NOAA and the Endangered Species Act, this proposal for 
ocean zoning, I would say, is another attempt at the fishing 
industry. I believe that's really behind this whole thing. They 
want to raise their fish commercially in big farms. This has 
been NOAA's dream the whole time and get away from the wild-
caught fish, which is the key to our society in Alaska. That's 
our biggest strength. You might want to comment on that. I 
really think this is where this is headed.
    Ms. Madsen. Congressman, you have also pointed out another 
issue that we have constantly had a battle with different 
administrations on farming and open ocean farming. That's 
something that Alaska won't tolerate. So you're exactly right. 
As you well know, I think our concern is that the North Pacific 
has been, thanks to your help, the premiere council.
    We have taken steps to protect not only the areas of 
importance, we're concerned that that's going to be undermined 
by a Regional Planning Body that has no expertise that will 
totally undermine that open, transparent stakeholder process 
that we've all become dependent on and it's an important 
process. That's our main concern.
    Mr. Young. Thank you.
    Mr. Lang, I'm sure you're aware of the Executive Order. 
Many people--I have yet to figure out who are these many 
people--say, all we're doing is implementing the findings of 
the U.S. Commission on Ocean Policy. But the Commission 
recommended the ocean planning process be done through a 
voluntary process and a stakeholder involvement.
    Do you--there's been no stakeholder involvement. It hasn't 
been voluntary. This is an Executive Order. That was the 
Commission's recommendation not to do that, yet here we have 
the Administration just doing the opposite. I go back to, other 
than yourself, has anybody else been involved in this?
    Reggie, you've been involved in that committee. Did they 
talk to your committee at all?
    Mr. Joule. We had invited State Department persons that's 
senior adviser to the Arctic Council, but I don't think any of 
them from the National Oceans Council made any of our task 
force meetings.
    MR. LANG: Mr. Chairman, I think I can probably give an 
example to exemplify the process that's been used here and what 
the State concerns are.
    One of the nine strategic plans is an Arctic strategic 
plan. Really the only reason the United States is an Arctic 
nation is because of the State of Alaska. It would be very 
critical in my eyes if you're going to have an Arctic policy be 
developed that the State would be at the table, part of that 
writing team, preparing that document rather than just being 
asked to comment on that document as it comes out for a series 
of public release opportunities and, again, being treated as a 
stakeholder and providing comments into it.
    Again, we weren't provided that opportunity to sit down and 
be part of that writing team and actually develop that Arctic 
policy that's going to greatly affect our state. Again, our 
view of this thing is it's largely been a Federal effort 
throughout all those different nine strategic plans where we 
have an opportunity to provide comments just like anybody else 
in this process, rather than being treated as an equal in that 
process as it goes forward and those documents are developed.
    You're right, those documents have significant policy 
issues associated with them and they have significant 
milestones placed into them. We're starting to see these things 
end up in Federal documents. For instance, we just recently 
reviewed a document that the Bureau of Oceans put out that said 
future NEPA opportunities will be somewhat sideboarded by the 
policies that are developed by the Regional Planning Boards.
    So, for instance, the range of alternatives could be 
sideboarded into the future as the Regional Planning Boards 
make decisions and a variety of other recommendations regarding 
the marine environment.
    Mr. Young. I'm singing to the choir here. Our job is to try 
to use your testimony to really try to show that there hasn't 
been the involvement there should be. This is--you know, this 
is the mark and the group of policy and philosophy of the 
individuals now that work for the Federal Government, that they 
know what's best for every state. I've always said, we're not 
supposed to be the United States of the Federal Government. We 
should be the United States of America.
    For stakeholders not to be involved in something that 
directly affects not only their livelihoods, but their lives in 
total, is dead wrong. This is not the government that I know 
and dearly love. This is a government that's gone far beyond. 
Like I said, we're supposed to be--I got a big kick, and I will 
pick on this President.
    The day he says to the press, well, if the Supreme Court 
rules against health care, that's the wrong thing to do because 
Congress passed the legislation. Here we have, you know--the 
Congress has chosen not to touch this ocean policy, big brother 
BOB thing, and yet they're going and making an Executive Order 
affecting stakeholders. We're sensitive in Alaska. Probably 
nobody cares in Montana or Iowa or Kansas City or something 
like that. But Alaska is a coastal Arctic nation and to have 
this happen is, I think, inappropriate.
    I hope the state and government and legislative body takes 
a positive position and thumbs their nose at the Federal 
Government if they continue to do this and we're not, you know, 
have the courage to stop funding. That's the key, to stop 
funding.
    I want to thank this panel. We could go on with questions. 
You will probably get some questions from me submitted to you 
and I'd like to have them back. You're dismissed.
    We have now the second panel: Ms. Kara Moriarty, Executive 
Director of the Alaska Oil and Gas Association; Fred Parady, 
Executive Directive of the Alaska Miners Association; John 
Sturgeon, Director of Alaska Forest Association; Dr. John 
Farrell, Executive Director of the U.S. Arctic Research 
Commission.
    Please sit down. I think you all know the regulations, 
rules and those things.
    Ms. Moriarty, you're up.

STATEMENT OF KARA MORIARTY, EXECUTIVE DIRECTOR, ALASKA OIL AND 
                        GAS ASSOCIATION

    Ms. Moriarty. Good morning, Congressman. For the record, my 
name is Kara Moriarty and I am the Executive Director of the 
Alaska Oil and Gas Association, commonly referred to as AOGA. 
We are the business trade association for the oil and gas 
industry here and our membership does represent the breadth and 
scope of the industry. We represent both onshore and off-shore 
companies here in Alaska. So, welcome home. We appreciate you 
having the field hearing here today and for the opportunity to 
testify.
    Before I discuss some of our specific concerns with the 
National Ocean Policy proposal, I first want to remind you, 
Congressman, and others that AOGA would agree that a more 
streamlined permitting and regulatory process is needed in the 
Federal Government, but we believe that this should and could 
be accomplished through improving existing statutory and 
regulatory regimes which already encompass National Ocean 
Policy concerns, including the Outer Continental Shelf Lands 
Act, the National Environmental Policy Act, or NEPA, the Clean 
Air and Water Acts, the Endangered Species Act, and the Marine 
Mammal Protection Action, just to name a few.
    There is no need to reinvent the wheel or add additional 
layers to an already complex and lengthy project approval 
process. We have submitted testimony in more detail about the 
National Ocean Policy, but I'd like to emphasize some of our 
main concerns today.
    First, the draft plan contains very little information on 
how Coastal and Marine Spatial Planning will be implemented 
even though marine spatial planning is the crux of the issue 
for National Ocean Policy. The public, including AOGA, has been 
asking from the very beginning for details since this policy 
was rolled out two years ago and we have yet to receive them.
    According to language contained in the draft plan, details 
will be included in the Handbook for Regional Coastal and 
Marine Spatial Planning. However, to date, this handbook has 
not been released, nor is there any real indication as to 
exactly what details the handbook will contain. This lack of 
detail creates huge uncertainties for the industry I represent. 
At a minimum, public comment on the information to be contained 
in the handbook should be collected and incorporated into the 
final Implementation Plan before Coastal and Marine Spatial 
Planning moves forward.
    Second, no information--and the first panel talked about 
this--but no information on Regional Planning Bodies has been 
provided beyond basic information on membership, which right 
now is to include only Federal, state and tribal 
representatives. Stakeholders such as my industry will have no 
direct representation.
    Third, we are concerned that the National Ocean Policy 
could reach far inland beyond oceans and coasts based on vague 
language included in the draft plan and saying that inland 
areas could be included, but there is no defining or clarifying 
language.
    Fourth, we are concerned that spatial planning will add to 
rather than streamline statutory and regulatory processes for 
oil and gas exploration and development in Alaska, as you have 
said, Congressman. The Administration has said the policy will 
not change existing Federal authorities and responsibilities; 
however, the draft plan includes contradictory language that 
Senator Murkowski already outlined.
    Fifth, we are justifiably concerned that the National Ocean 
Policy and Coastal Marine Spatial Planning will result in 
exclusionary zoning of Alaska's oceans and coasts.
    Sixth, we are concerned about how the implementation will 
be funded. You've already mentioned that, especially given 
scarce resources across all Federal agencies. We do not believe 
National Ocean Policy should be given a priority or have funds 
diverted from already existing programs.
    Last, we are concerned that the policy will be used as a 
tool for litigation. This is a real concern given the extreme 
attention already on Alaska oil and gas projects and one that 
should be acknowledged before pursuing implementation much 
further.
    The importance of oil and gas development in Alaska's OCS 
cannot be overstated. Implementation of a National Ocean Policy 
should not hinder efforts to develop the resources contained in 
Alaska's OCS.
    Thank you for the opportunity to testify, and we look 
forward to the questions at the end of the panel.
    Mr. Young. Thank you, Ms. Moriarty.
    [The prepared statement of Ms. Moriarty follows:]

            Statement of Kara Moriarty, Executive Director, 
                     Alaska Oil and Gas Association

    My name is Kara Moriarty and I am the Executive Director of the 
Alaska Oil and Gas Association. AOGA is a business trade association 
whose membership represents the breadth and scope of the oil and gas 
industry in Alaska, from new explorers, small independents and legacy 
development and production companies, to companies involved in the 
transportation, refining and marketing of oil and gas in the state, 
from Cook Inlet to the North Slope, onshore and offshore, including 
companies with both federal and state interests. We appreciate you 
holding a field hearing in the state and the opportunity to testify 
today.
    First of all, AOGA agrees that more streamlined permitting and 
regulatory processes are needed, but believe that this should be 
accomplished through existing statutory and regulatory regimes which 
already encompass National Ocean Policy concerns, including the Outer 
Continental Shelf Lands Act, the National Environmental Policy Act, the 
Clean Air and Water Acts, the Endangered Species Act, and the Marine 
Mammal Protection Act. There is no need to reinvent the wheel or add 
additional layers to an already complex and lengthy project approval 
process. Instead, focus should be on streamlining these existing 
processes to reduce the delays and uncertainties synonymous with 
permitting oil and gas activities in Alaska.
    My testimony this morning will now focus on the three primary areas 
of concern AOGA has with implementation of the National Ocean Policy as 
currently envisioned by the National Ocean Council. First, the lack of 
detail surrounding Coastal and Marine Spatial Planning and the policies 
and procedures of the Regional Planning Bodies charged with creation 
and implementation of the regional CMS plans. Second, the additional 
layer of bureaucracy the National Ocean Policy in general, and Coastal 
and Marine Spatial Planning in particular, could add to an already 
established and complex statutory and regulatory regime. And finally, 
concerns about how the National Ocean Policy will be implemented 
throughout the federal agencies in a time of fiscal restraint and 
scarce federal resources.
    The Draft National Ocean Policy Implementation Plan contains very 
little information on how Coastal and Marine Spatial Planning will be 
implemented even though it is the crux of the National Ocean Policy. 
The public, including AOGA, has continued to express concern about the 
lack of detail about CMSP since the policy was rolled out in 2010, yet 
the National Ocean Council has once again failed to address these 
concerns. According to language contained in the Draft Implementation 
Plan, details will be included in the Handbook for Regional Coastal and 
Marine Spatial Planning. However, to date, the Handbook has not been 
released nor is there any real indication as to exactly what details 
the Handbook will contain. Importantly, there is no assurance that 
public comment on the Handbook will be collected. This lack of detail 
creates huge uncertainties regarding how CMSP will impact the oil and 
gas industry. We would like to provide meaningful, substantive input, 
but this is impossible without comprehensive information. At a minimum, 
public comment on the information to be contained in the Handbook 
should be collected and incorporated into the final implementation plan 
before CMSP moves forward.
    Similarly, no information on Regional Planning Bodies has been 
provided beyond basic information on membership to include only 
federal, state and tribal representatives. Under the Draft 
Implementation Plan, stakeholders will have no direct representation on 
the planning bodies, despite the fact that the planning bodies are 
charged with creation and implementation of regional CMS plans 
encompassing all ocean and coastal uses. If CMS plans are to be 
effective and useful tools for ocean and coastal management, we believe 
membership should be expanded to include representatives from 
stakeholder groups, including the oil and gas industry. Without such 
involvement, the potential is real for prohibitions against activities 
such as oil and gas without the involvement of the most impacted 
parties.
    At this point, the Draft Plan does not even include information on 
how stakeholders would be engaged in the CMS planning process by the 
regional planning bodies. Apparently, this information will be included 
in the Coastal and Marine Spatial Planning Handbook, but again, it is 
not clear whether public comment will be collected. Furthermore, there 
is some indication that the Handbook will contain ``guidance'' for 
regional planning bodies only, rather than mandatory procedures, which 
would result in even more uncertainty and potential delay or 
prohibitions against oil and gas activities. At the very minimum, the 
final implementation plan should specify the processes and procedures 
for stakeholder and public engagement with the planning bodies on CMSP 
issues.
    In addition, no information has been provided on how disputes among 
members of the regional planning bodies will be handled. Who is the 
final arbiter on applicable law and policy with regard to a particular 
project? It is easy to see how this could also delay or prohibit oil 
and gas projects in Alaska due to numerous interested parties and 
potentially overlapping jurisdiction and authority.
    In this same vein, we are concerned that the National Ocean Policy 
could reach far inland beyond the oceans and coasts. Once again, vague 
language is included in the Draft Implementation Plan stating that the 
geographic scope of Coastal and Marine Spatial Planning could include 
``inland'' areas but no defining or clarifying language. Such a policy 
could have huge impacts on the oil and gas industry in Alaska as the 
North Slope still contains significant oil and gas resources.
    Our next point concerns the potential for CMSP to add to rather 
than streamline statutory and regulatory processes for oil and gas 
exploration and development in Alaska. According to statements by the 
National Ocean Council and other senior level officials in the 
Administration, National Ocean Policy will not change existing federal 
authorities and responsibilities. However, the Draft Plan includes 
contradictory language. For example, one of the milestones identified 
in the Draft Plan is for the Legal Working Group to complete review of 
Ecosystem Based Management-relevant statutes and regulations to 
identify ``potential legislative changes that would fill gaps and 
support full implementation of EBM.'' This type of contradictory 
language only creates confusion and needs to be removed from the final 
implementation plan.
    Additionally, messaging by the National Ocean Council and the 
Administration must clarify that the National Ocean Policy will fit 
within existing statutory and regulatory regimes. To reiterate my 
earlier testimony, there is no need for a National Ocean Policy that 
would reinvent the wheel or add new layers to the complex and lengthy 
project approval process for Alaska oil and gas projects. Rather, focus 
should be on streamlining existing processes to reduce the delays and 
uncertainties.
    As I have mentioned during my testimony, we are justifiably 
concerned that National Ocean Policy and CMSP will result in 
exclusionary zoning of Alaska's oceans and coasts. Though the National 
Ocean Council and others have made statements that this will not be the 
case, our fear is already being realized in environmental planning 
documents. For example, in the Draft Programmatic Environmental Impact 
Statement for the 2012-2017 Outer Continental Shelf Oil and Gas Leasing 
Program, the U.S. Department of Interior stated that Coastal and Marine 
Spatial Planning ``has emerged as a new paradigm and planning strategy 
for coordinating all marine and coastal activities and facility 
constructions within the context of a national zoning plan. Clearly, 
zoning of Alaska's oceans and coasts, in advance of specific project 
proposals, coupled with a lack of stakeholder involvement in the CMSP 
process, could severely and adversely impact economic and resource 
development projects in Alaska, including oil and gas activities.
    Finally, AOGA is concerned about how implementation of the National 
Ocean Policy will be funded, especially given scarce resources across 
all federal agencies. Implementation of the National Ocean Policy 
should not be given priority over existing regulatory and permitting 
programs necessary for approval and oversight of resource and economic 
development projects in Alaska, including oil and gas activities, or 
funds diverted away from these programs.
    Given the lack of detail described above and prevalent throughout 
the National Ocean Policy Implementation documents, AOGA is concerned 
that the Policy, particularly CMSP, will be used as a tool for 
litigation. This is a real concern given the attention on Alaska oil 
and gas projects and one that should be acknowledged before pursuing 
implementation much further or so broadly. AOGA does not believe that 
the National Ocean Policy should be implemented without detailed 
information on the important aspects of implementation I have 
described. At a minimum, AOGA believes implementation should not occur 
until there has been adequate opportunity to provide input on these 
issues.
    The importance of oil and gas development on Alaska's Outer 
Continental Shelf, to Alaska and the nation, cannot be overstated. 
Developing these resources is essential to any effort to reduce our 
dependence on foreign sources of oil and should not be unjustifiably 
impeded by unclear project regulation and development procedures. 
Alaska's OCS is estimated to hold 27 billion barrels of oil and 132 
trillion cubic feet of natural gas, the development of which would 
translate into an annual average of 54,000 new jobs over 50 years, $145 
billion in payroll throughout the U.S. and $193 billion in revenues to 
state, local and federal governments. These resources are also vital to 
stemming the decline of oil flowing through the Trans-Alaska Pipeline 
System, identified by the U.S. Department of Homeland Security as 
critical national infrastructure, which is currently operating at one-
third capacity and will face continued operational challenges without 
additional supply. Implementation of the National Ocean Policy should 
not hinder efforts to develop the resources contained in Alaska's OCS.
    Thank you again for the opportunity to testify today and I am happy 
to answer any questions you may have about AOGA's views on the National 
Ocean Policy and the impacts it may have on the oil and gas industry in 
the state.
                                 ______
                                 
    Mr. Young. Mr. Fred Parady.

  STATEMENT OF FRED PARADY, EXECUTIVE DIRECTOR, ALASKA MINERS 
                          ASSOCIATION

    Mr. Parady. Good morning. My name is Fred Parady. I serve 
as the Executive Director of the Alaska Miners Association. The 
Alaska Miners Association is a nonprofit membership 
organization established in 1939 to represent the mining 
industry in Alaska. It is composed of more than 1,400 
individual prospectors, geologists, engineers, vendors, suction 
dredge miners, small family mines, junior mining companies and 
major mining companies. Our members look for and produce gold, 
silver, platinum, diamonds, lead, zinc, copper, coal, 
limestone, sand, gravel, crushed rock, armor rock and other 
materials all across Alaska.
    Turning to the proposed National Ocean Policy. It will have 
a substantial and negative impact on Alaska's resource-
dependent industries and Alaska's economy. The existing 
regulatory regime is already overly complex, a blend of state 
and Federal permitting and oversight that's anything but a 
streamlined, sensible process. The National Ocean Policy simply 
adds by stealth a layer of increased bureaucracy that will 
virtually stop processes that already crawl with no concomitant 
benefit to the economy.
    It is our strong view that the Coastal Marine Spatial 
Planning and Regional Planning Body structure is an 
unauthorized regulatory program with no basis in statute and is 
an end run by the executive branch around Congress. Lack of 
sufficient information itself is a primary basis for third-
party legal claims by environmental groups seeking to block 
development projects. These new requirements of the National 
Ocean Policy will generate yet another round of endless study 
and halt common-sense decisions in their tracks.
    Our state's natural resource managers need to use the data 
available to them and make decisions with the detailed 
information that's already in the public records. Clearly 
permitting uncertainty is increased by the National Ocean 
Policy's stated intention to reach the onshore activities that 
may have impacts on marine waters. The National Ocean Policy is 
simply another obstacle and will provide an additional platform 
for third-party environmental groups to litigate against 
projects that fail to meet the vague and overly broad 
informational requirements of the proposed policy.
    AMA is further concerned that Coastal Marine Spatial 
Planning will lead to far-reaching use restrictions on marine 
waters that will override the social and economic needs of 
Alaskans.
    No one present at the signing of the original wetlands 
legislation anticipated that it would be anything more than a 
mechanism to ensure that ducks had sufficient wetlands for 
breeding. Yet look at the ways in which the regulatory 
interpretation has broadened from that date, particularly 
through the expansion of the definition of what constitutes a 
wetland and then contemplate the use of phrases--I lost track 
of my thought here--the use of the phraseologies that are in 
the National Ocean Policy. No net loss of wetlands should have 
a parallel Alaskan goal of no net loss of access to our 
resources.
    One specific example where the National Ocean Policy would 
slow projects is in regards to recovery of gold resources off 
the shores of Nome, which the State recently successfully 
leased. Such activity would be slowed, if not stopped, by the 
proposed policy.
    Please note that a justification for the CMSP is supposedly 
to resolve conflict among diverse resource interests, yet every 
resource interest that's presented testimony today stands 
firmly aligned in opposing this overreaching effort.
    In closing, AMA strongly urges Congress to maintain a laser 
focus on the broad efforts to change the way ocean and coastal 
resources are managed. Congressional oversight is needed to 
prevent premature implementation of this policy and keep 
Federal agencies at home fulfilling their core job of 
processing Federal permits and leases.
    There has not been meaningful stakeholder engagement. In 
fact, to most Alaskans, today's hearing is going to be their 
first comprehensive look at this Federal rulemaking by stealth.
    Finally, during this very weak economic recovery with weak 
job creation, the Administration should be looking to reduce 
regulations, not to create another lair of job-killing 
regulation. The National Ocean Policy is the wrong idea at the 
wrong time. It adds complexity and jurisdictional ambiguity to 
what is already a very difficult permitting environment.
    Thank you for the opportunity to comment on this far-
reaching, poorly conceptualized and inadequately prepared 
initiative.
    Mr. Young. Thank you, Mr. Parady.
    [The prepared statement of Mr. Parady follows:]

Statement of Fred Parady, Executive Director, Alaska Miners Association

    Good morning members of the committee. My name is Fred Parady, 
Executive Director of the Alaska Miners Association (AMA). The Alaska 
Miners Association is a non-profit membership organization established 
in 1939 to represent the mining industry in Alaska. The AMA is a 501 C-
6 International non-profit composed of more than 1400 individual 
prospectors, geologists and engineers, vendors, suction dredge miners, 
small family mines, junior mining companies, and major mining 
companies. Our members look for and produce gold, silver, platinum, 
diamonds, lead, zinc, copper, coal, limestone, sand and gravel, crushed 
stone, armor rock, and other materials. Our members live and work 
throughout Alaska, Canada, Russia, Mongolia, and the lower 49 states. 
We have submitted the required documents for the record.
    The proposed National Ocean Policy will have a significantly 
disproportionate impact on Alaska's resource dependent industries and 
our economy as a whole, for the simple and straightforward reason that 
at approximately 34,000 miles, Alaska has more coastline than all of 
the lower 48 states combined.
    The existing regulatory regime is already cumbersome and complex, a 
blend of State and Federal permitting and oversight that reflects 
tangled history but is not a streamlined, sensible process. The 
National Ocean Policy simply adds a layer of increased bureaucracy that 
will further slow already slow processes with no concomitant benefit to 
the environment. It is our strong view that the Coastal Marine Spatial 
Planning/Regional Planning Body structure is an unauthorized new 
regulatory program.
    The ecosystem-based management goal as specified will undoubtedly 
require vast quantities of scientific data. Given that the purported 
lack of sufficient information itself is often the basis for third 
party legal claims by Environmental Non-government Organization (eNGOs) 
to block development projects, this new requirement will generate 
another endless round of study and halt common sense decisions in their 
tracks. Natural resource managers need to use best available data to 
move forward and make the best decisions with information available.
    Clearly, uncertainty is heightened by the National Ocean Policy's 
stated policy of reaching to onshore activities that may have impacts 
on marine waters. Section 404 of clean water act and the ubiquitous 
nature of wetlands means upland activities already are highly regulated 
in Alaska. A plethora of petitions to list additional species under ESA 
onshore and off are adding substantial burdens to landowners and 
resource industries, without resulting in any recognizable progress for 
the underlying species. But one example is that hardrock mines in 
Alaska require over 60 State and Federal authorizations to proceed with 
development. The National Ocean Policy adds yet another another hurdle 
to overcome, and will serve to provide an additional platform for third 
party eNGOs to litigate against projects that fail to meet the 
informational requirements or expectations for the National Ocean 
Policy.
    AMA is further concerned that Coastal and Marine Spatial Planning 
will likely lead to far reaching use restrictions on marine waters that 
will over-ride the social and economic needs of Alaskans. No one 
present at the signing of the original wetlands legislation anticipated 
that it would be anything more than a mechanism to insure ducks had 
sufficient wetlands for breeding. Yet look at the ways in which 
regulatory interpretation has broadened from that date. Broad swaths of 
submerged lands could be restricted in exclusionary zones for a 
nebulous national agenda of ``ecosystem based management''. One 
specific Alaska example regards the recovery of gold resources off the 
shores of Nome, which the State recently successfully leased. Such 
activity would be slowed if not stopped. Even if restricted zones were 
more modest in size and scope, use restrictions in strategic marine 
corridors necessary for resource transport and shipping could be 
devastating to our marine dependent industries.
    One note worth making is that a justification for Coastal and 
Marine Spatial Planning is to resolve conflict among diverse resource 
interests, yet AMA and other resource associations are firmly aligned 
in opposing this overreaching effort. We are all concerned that NOP 
will create far more difficulties for these industries than it will 
resolve.
    In closing, AMA strongly urges Congress to maintain an integral and 
substantial oversight role in these broad efforts to change the way 
ocean and coastal resources are managed. The power of appropriation 
could and should be used to restrain the premature implementation of 
the National Ocean Policy. Congressional oversight is needed to ensure 
implementation of the National Ocean Policy does not prevent Federal 
Agencies from fulfilling their core congressional mandates to 
adjudicate needed federal permits and leases.
    AMA notes that there has not been meaningful stakeholder 
engagement. Detailed economic analysis of impacts of the policy should 
be completed and available for full public and Congressional review 
before policy implantation. The Handbook for Regional Coastal Marine 
Spatial Planning must be subject to public input, review, and comment 
before implementation.
    At best, we believe the National Oceans Council should utilize 
pilot projects in geographic areas where NOP and CMSP has some 
acceptance, before broad swaths of ocean and marine areas, such as 
Alaska, have this policy imposed upon them.
    Finally, during this very tenuous economic recovery with 
accompanying high unemployment, Congress and the administration should 
be untangling the complex web of complex statutes and regulations that 
are strangling our productive resource sector of our economy and 
killing job creation. National Ocean Policy does exactly the opposite--
it adds complexity and jurisdictional ambiguity. Congress, the States 
and the private sector should have a more meaningful role in 
development and implementation of such far-reaching policies for State 
and Federal waters and upland resources.
    Thank you for the opportunity to comment on this far-reaching 
initiative.
                                 ______
                                 
    Mr. Young. Mr. Sturgeon, Is there any forestry left in 
Alaska, by the way?
    Mr. Sturgeon. Pardon?
    Mr. Young. Is there any forestry left in the State of 
Alaska?
    Mr. Sturgeon. We're definitely the last of the Mohicans, 
but there's a few of us left. We're trying to stay alive.
    Mr. Young. One of the disappointments in my career has been 
the fact that at one time there were 15,000 high-paying jobs in 
the State of Alaska and I think we may have maybe 80.
    Mr. Sturgeon. That may be a little bit of an exaggeration, 
but not many of us left.

             STATEMENT OF JOHN STURGEON, DIRECTOR, 
                   ALASKA FOREST ASSOCIATION

    Mr. Sturgeon. Good morning, Representative Young. I'd like 
to thank you for the opportunity to provide comments on the 
National Ocean Policy's program. I'm here today representing 
the Alaska Forest Association. The Alaska Forest Association 
has represented Alaska's forest products industry since 1955.
    Alaska has operated our forestry businesses in a 
responsible manner for many years. I was a member of the tasks 
force that developed Alaska's original Forest Practice Act. 
That Act was designed to ensure that both water quality and 
fish habitat were maintained at or above State standards during 
and after road construction and logging operations. The Forest 
Practice Act has worked very well for Alaska.
    We have maintained excellent water quality and our 
fisheries have been maintained in many areas and even improved. 
For example, the Harris River watershed in Southeast Alaska was 
heavily logged between 1985 and 1995 by Forest Service 
contractors in conformance with state and Federal rules and 
management practices.
    We are happy to report to you that salmon returns in these 
two heavily logged watersheds have doubled since logging 
operations commenced many years ago. That area of our state has 
been developed and the developed areas are already managed 
responsibly.
    Our state's streams, rivers and coasts do not need 
restoration. Expanding existing Federal regulations and 
permitting functions is not necessary in Alaska, and a through 
cost-benefit analysis should be performed prior to making any 
decision to expand any of the existing Federal programs.
    The state and Federal agencies have already developed 
methods of coordinating their various permitting and regulatory 
programs. An expansive Federal program to coordinate permitting 
and regulatory issues is not needed. For example, we ended our 
Coastal Zone Program last year and we have experienced no 
environmental impacts. Instead, we have eliminated the cost of 
that program and have reassigned most of the former Coastal 
Zone Program staff to more meaningful work. It would seem that 
this new program flies in the face of the general mood of the 
country for less government rather than more.
    Climate change issues seem to dominate much of the draft 
Implementation Plan for the National Ocean Policy. While there 
is still considerable debate about the climate issue, we would 
like to note that Alaska's coastal streams are not sensitive as 
those in the Lower 48. Studies have shown that some warming 
would actually be beneficial.
    What is needed in Alaska is a more business-friendly 
regulatory climate. Endless regulatory creep makes it very 
difficult to maintain profitable businesses and the jobs those 
businesses support, particularly in small communities where 
most timber operations take place. If the Federal Government 
truly wants to help in Alaska, the draft National Ocean Policy 
Implementation Plan should be revised to concentrate on 
eliminating redundant or unnecessary programs, regulations and 
permitting functions.
    The number of regulations small logging companies already 
have to deal with is truly mind boggling. Unlike large 
companies, small businesses cannot afford to hire an 
environmental manager just to assure they're in compliance with 
the many, many environmental regulations that they have to face 
today. We urge you not to add yet one more layer of unnecessary 
environmental regulations on top of what we already have to 
deal with.
    Once again, thank you very much for the opportunity to 
testify today and we appreciate your attention to this 
important issue.
    Mr. Young. Thank you, Mr. Sturgeon.
    [The prepared statement of Mr. Sturgeon follows:]

    Statement of John Sturgeon, Director, Alaska Forest Association

    Thank you for the opportunity to testify on the potential impacts 
of the new National Ocean Policy.
    My name is John Sturgeon and I am a Director for the Alaska Forest 
Association. The AFA is the statewide association representing 
companies engaged in forest practices including support companies. We 
have 115 members and represent timber companies, loggers, trucking and 
towing companies, suppliers, and other members who have a stake in the 
future of a vital and hopefully healthy timber economy in Alaska.
    We have several concerns with President Obama's ocean zoning 
executive order.
    The lands in Alaska are mostly undeveloped and the lands that have 
been and are being developed are managed responsibly and in conformance 
with State and federal regulations. There is no need for 
``restoration'' of the lands in our State; we have abundant wetlands, 
excellent air and water quality, we have increased our fisheries and 
our wildlife is doing well. This new Policy will likely result in new 
regulatory burdens without significant environmental improvements for 
our State.
    The National Oceans Policy purports to be a framework for 
coordinating the efforts of many federal agencies, but the draft 
Implementation Plan appears to encourage significant changes in federal 
regulations and programs. For instance, the ``ecosystem-based 
management'' concept in the implementation Plan seems to assume there 
is some critical need to address climate change issues and sequester 
carbon. Yet the plan seems to mostly ignore the costs impacts of taking 
dramatic action on this hypothetical crisis. The draft Plan indicates 
that implementation will require grants, new funding for National Ocean 
Policy priorities and directs that new management practices be 
developed; but there seems to be no mention of any cost-benefit 
analysis for these expenditures. Additionally, the draft Plan promotes 
the expansion of the Coastal Zone Management Act, but that Act is not 
currently utilized in Alaska.
    The draft Plan discusses improved efficiency of permitting, but it 
would be a more helpful plan if it were more clearly aimed at reducing 
the permitting requirements and eliminating redundant permitting and 
regulatory processes. The draft Plan indicates there will be a 
``special-planning'' effort, but we don't need additional land planning 
help in Alaska. Instead, we need to foster a more friendly business 
climate so we can continue to develop our resources in a responsible 
manner. The loss of thousands of timber industry jobs in Southeast 
Alaska is a good example of federal planning gone awry. In the 
Southeast region of our State, the federal government has monopoly 
power over the timber resources, but excessive environmental zeal in 
the national forest planning process has resulted in the loss of 90% of 
our timber supply from federal lands. Since the State and private lands 
in the region are very limited, we have lost about 85% of our industry 
employment due to the loss of access to federal timber resources.
    The summary in the draft Plan states that this planning ``will be 
done without creating new bureaucracy and without negative economic 
impacts'', but that doesn't seem likely. This new Policy appears to be 
headed toward more costly, restrictive rules and regulations.
    Congress has already decided what laws and requirements apply to 
coastal and ocean development and what policies and criteria federal 
agencies should use to decide whether to grant a permit for a 
particular project. Overlaying the President's ocean zoning policy and 
plan on top of the existing statutory and regulatory framework creates 
uncertainty and conflict. Both of which are problematic if you are 
trying to encourage economic development, jobs, and certainty in 
permitting.
    Section 5(b) of the Executive Order says that ``executive 
departments', agencies' or office's decisions and actions affecting the 
oceans and coasts. . .will be guided by the stewardship principles and 
national priority objectives set forth in the Final Recommendations''. 
So the Executive Order says agencies must follow the President's 
policies and objectives when making decisions. This mandatory language 
is followed by language in the Executive Order that says ``to the 
extent consistent with applicable law'' but what does that mean?
    Does that mean that a permitting agency deciding whether to grant a 
permit follows the direction of Congress in the Outer Continental Shelf 
Lands Act which sets out a policy with Congressional direction to 
promote development and to work with States and local communities in 
making permitting and leasing decisions on a case by case basis? How 
does a permitting agency with that Congressional statutory framework 
fit that framework with the President's EO which says the policy 
federal agencies should be following are the stewardship principles 
designed to protect oceans and bolster conservation, (Section 1 of EO) 
and to follow the guidance of the National Ocean Council (Section 1 of 
the EO) not Congress, or States or local communities or stakeholders.
    If the EO did not mandate federal agencies to follow the direction 
and policy, if it said federal agencies ``may'' apply the policies and 
principles of the EO if the action they are contemplating is not 
already covered by an act of Congress and if the EO said federal 
agencies must continue to give deference to, and cooperate and 
coordinate with states, local communities, and stakeholders as set out 
in current laws and regulations then the EO would avoid conflict and 
uncertainty in federal decision-making. But it does not say that. It 
uses mandatory language and while it contains some catch all language 
``consistent with applicable law'' the language is not enough to save 
the EO from becoming a problem.
    How would any member of the public or industry supportive of a 
permit or development know if the federal agency made its decision 
based on the policy and requirements in statute or those set out in the 
EO, or how much weight it gave to specific factors in its decision 
making process? If you do not know which factors were relied on and to 
what degree, then federal agencies can just follow the principles of 
the EO and give lip service to the actual laws and regulations that are 
on the books now. And companies looking to invest and create jobs are 
going to be concerned at a minimum that it is uncertain what factors 
will be brought to bear on their project.
    This EO is trying to act in an area Congress has already acted in 
and given direction to federal agencies. If the President wants to 
create a new framework for federal action in the ocean and coastal 
areas he should follow the proper procedure and introduce a bill that 
sets a national policy on oceans like H.R. 21 was introduced in the 
110th Congress and allow the issues to be openly debated.
    The federal government should also be required to follow the 
procedures of the Administrative Procedure Act which require federal 
agencies to follow rules and provide an opportunity for the public to 
comment, the Regulatory Flexibility Act which requires an estimate of 
the impacts on businesses from federal agency action, and the National 
Environmental Policy Act, which requires studies and analysis of any 
major federal action, which a new national ocean policy certainly 
qualifies for. (Since a timber sale for 10 acres qualifies) All these 
protections should apply to this federal action in this EO because 
imposing a new national ocean policy is very significant.
                                 ______
                                 
    Mr. Young. Dr. Farrell.

 STATEMENT OF JOHN W. FARRELL, EXECUTIVE DIRECTOR, U.S. ARCTIC 
                      RESEARCH COMMISSION

    Mr. Farrell. Good morning, Chairman Young. Thank you for 
inviting me to speak to you today. Fran Ulmer, the Chair of the 
Arctic Research Commission, sends her greetings and regrets 
that she could not be here to testify today. She's attending 
her son's wedding.
    My name is John Farrell and I am the Executive Director of 
the Commission. My principal duty is to develop and help 
implement a National Arctic Research Policy and to recommend 
goals and objectives for Arctic scientific research in service 
to the nation. I've submitted my full statement, which I ask to 
be made part of the hearing record.
    I last testified before this Subcommittee in favor of your 
bill. That was H.R. 2864 to amend the Hydrographic Services 
Improvement Act. The Commissioners have asked me to pass along 
their congratulations to you on the passage of the Arctic 
Marine Shipping Assessment, an Act that you sponsored and 
worked on with the Commission.
    My message today to you is simply this: The five Arctic-
related actions in the National Ocean Policy will improve safe 
operations in the Arctic for both the public and private 
sectors and will boost our economic growth and enhance 
security. These five actions will create a unifying framework 
that will do the following: Improve coordination and 
integration for those who operate in the Arctic, reduce 
conflicts and delays that hinder economic development, increase 
operating efficiencies and reduce uncertainty in the 
marketplace while at the same time ensuring that our oceans 
will remain productive for future generations.
    These actions were selected with considerable input from 
Alaska stakeholders and from others with Arctic experience, and 
we will continue to refine these actions based on further 
public comment and input. The first action is to advance marine 
mapping and charting as you've previously called for.
    Charts are central to our understanding of the region and 
are essential to ensuring, in the words of Lieutenant Governor 
Mead Treadwell and Commissioner Dan Sullivan, a quote, a safe, 
secure and reliable Arctic marine transportation system. That's 
the first action.
    The second is to enhance communications systems in the 
Arctic. Improved early warning and emergency response systems 
will speed our ability to assess and respond to emerging events 
and therefore minimize downtime. An example is implementing the 
automatic identification system, the AIS.
    The third action will be to augment our basic oceanographic 
observations in the Chukchi and Beaufort Seas. A greater 
understanding of how the ecosystem is changing will serve as a 
guide for resource managers and provide subsistence-based 
communities with information they need to adapt to variable 
conditions.
    Fourth, we aim to improve preparation and response 
management to emergencies that might arise from resource 
development and marine transportation. While greater 
international cooperation has already begun, there's room for 
more coordination, planning and training.
    Finally, the fifth action from the Arctic Strategic Action 
Plan is to better observe and forecast Arctic sea ice, a topic 
whose importance and significance is well known to the people 
in this room. Improving sea ice maps, analyses and forecasts 
will support homeland and national security, safe ship 
operation and navigation and resource development.
    These five actions I've discussed are part of a 
comprehensive National Ocean Policy that has been called for by 
two bipartisan commissions for over a decade.
    In closing, the Policy's emphasis is on more efficient and 
effective uses of existing authorities and resources. The 
Policy is implemented under existing law and does not impose 
any new regulations or alter any existing Federal authorities, 
inland or otherwise. The Policy does not impose any 
restrictions on ocean activities or direct that any area be 
designated for specific use or be off-limits to specific 
activities.
    The Commission supports the Federal Government's commitment 
to continue to engage state, local, tribal partners, industry, 
the public and other stakeholders in refining and implementing 
these five actions.
    Thank you again for considering the Commission's views on 
this policy.
    Mr. Young. Thank you, Doctor. I thank the panel.
    [The prepared statement of Mr. Farrell follows:]

            Statement of John Farrell, Executive Director, 
                    U.S. Arctic Research Commission

    Good morning Chairman Young. Thank you for inviting me to speak on 
National Ocean Policy, and the relevance to Alaska.
    My name is John Farrell, and I am the Executive Director of the 
U.S. Arctic Research Commission (USARC), a small, independent Federal 
agency, created by the Arctic Research and Policy Act (ARPA) of 1984. I 
testify today on behalf of Commission Chair Fran Ulmer and the other 
presidentially appointed Commissioners.
    As the Executive Director of the Commission, my principal duty is 
to work with the Commissioners to develop and recommend an integrated 
national Arctic research policy and to put forward a biennial report 
identifying goals and objectives for Arctic research. In addition, I 
assist the Interagency Arctic Research and Policy Committee (IARPC), 
also created by ARPA, to establish a national Federal Arctic research 
program plan to implement the policy and to fulfill the research goals.
    I'm here today to speak about the Arctic component of the draft 
Implementation Plan for National Ocean Policy. This policy was created 
by the National Ocean Council in response to President Obama's 
Executive Order 13547, titled ``Stewardship of the Oceans, Our Coasts, 
and the Great Lakes,'' that was released on July 19, 2010.
    The National Ocean Council asked me and Robert Winokur, the Deputy 
Oceanographer of the U.S. Navy, to help lead a team to draft the Arctic 
portion of this policy, and that's what I'll testify about today.
    Please note that the actions I will discuss today are not final. I 
look forward to reviewing the comments recently submitted by the public 
on the draft plan, so that we can adjust the Arctic section to better 
reflect the needs and concerns identified by the public.
Draft Implementation Plan for National Ocean Policy
    A draft Implementation Plan has been created for National Ocean 
Policy. This Plan lays out the initial steps required to achieve the 
vision and charge of the Policy, and addresses the most pressing marine 
challenges that face our nation. The Plan describes the specific 
actions within the scope of the National Ocean Council's charge that 
the Federal Government will undertake to deliver tangible results to 
the American people.
    The Plan does not encompass all Federal actions relating to oceans. 
Instead, it focuses on nine priority objectives. For each, a suite of 
actions and their intended outcomes are described. For each action, key 
milestones are outlined, lead agencies or other responsible entities 
are identified, and timeframes are listed. This structure is designed 
to provide a clear layout of what will be accomplished, by whom, and 
when.
    The purpose of the plan is to help unify Federal efforts within the 
scope of the National Ocean Policy around clearly articulated 
priorities and to identify a path to achieve them, to help meet the 
essential needs of Americans, and to ensure positive outcomes in 
addressing some of the most pressing challenges facing our ocean and 
the many Americans who rely on keeping our oceans healthy and 
productive.
    The National Ocean Policy is structured around nine priority 
objectives, and one of these, ``Changing Conditions in the Arctic,'' 
pertains directly to Alaska. The Arctic Ocean is identified as a 
priority region--the other priorities refer to issues rather than 
regions--because rapidly diminishing sea ice is presenting 
opportunities and challenges with great implications for Alaska and the 
nation as a whole.
Scope and focus of testimony
    Today, I will limit my testimony to the Arctic portion of the 
Implementation Plan, because I am familiar with it. I will not discuss 
other, broad themes in the Plan, such as ecosystem-based management, 
and coastal and marine spatial planning. They are beyond my area of 
expertise and the Commission has not developed a position on those 
elements of the Plan.
    Robert Winokur and I led a team of experts, from a wide range of 
Federal Departments and Agencies, to draft this Plan objective titled, 
``Changing Conditions in the Arctic.'' Our goal was to address 
environmental stewardship needs in the Arctic Ocean and adjacent 
coastal areas in the face of climate-induced and other environmental 
changes.
``Changing Conditions in the Arctic''
    The United States has broad interests in the Arctic. These range 
from national security and territorial sovereignty to sustainable 
management of domestic energy and living resources, environmental 
protection, cultural heritage, and scientific research. These interests 
must be addressed within the context of change, environmentally, 
market-driven, and otherwise. The Nation, the State of Alaska, Tribal 
governments, and coastal communities are faced with critical decisions 
about how best to manage natural resources and sustainable human 
activities in this region. They must do so in cooperation with other 
countries that also have equities in the Arctic.
    One of the most dramatic changes is the decrease in the areal 
extent and thickness of Arctic Ocean sea ice. Diminishment of the ice, 
and thawing permafrost leave large areas of coastal Alaska vulnerable 
to threats from rising sea level, stronger storms, and increased 
erosion. Marine and terrestrial ecosystems, regional weather patterns, 
and even the global climate system are affected by the retreat of sea 
ice. Ice-diminished transit routes in the Bering, Chukchi, and Beaufort 
Seas and other regions of the Arctic invite increased international 
resource development, commerce, and transportation, which will bring 
both new socioeconomic and environmental opportunities and stressors.
    Such rapid changes underscore the need for improved and timelier 
information across diverse scales and disciplines to provide effective 
stewardship, to ensure that natural resource management and economic 
development in the region are environmentally sustainable, and to 
support effective early warning and emergency response systems. 
Improved science and technology are needed to help the scientific 
community forecast changes with greater certainty and provide guidance 
for local communities, resource managers, and commercial interests in 
this remote region.
    Improvements in daily and weekly sea ice forecasts, for example, 
will benefit local community activities and safety, while also helping 
to provide a safe, secure, and reliable Arctic marine transportation 
system.
    Improved hydrographic mapping and bathymetric charting for mariners 
and for other users of marine transportation systems are also needed. 
Such products will reduce the risks of maritime incidents and will 
facilitate more resilient ocean and coastal economies.
    Another crucial resource will be a distributed biological 
observatory that will allow us to collect and share baseline ecosystem 
data, and better monitor, assess, and forecast environmental conditions 
under changing climate scenarios.
    For the Arctic region, this draft Implementation Plan strives to 
balance economic growth, community resilience, and environmental 
stewardship. By working through interagency structures, and by placing 
an emphasis on improved coordination with the State of Alaska and other 
stakeholders with common equities, the draft Plan will ensure that 
initiatives to advance national priorities are informed by the latest 
developments in science and technology.
    The transboundary effectiveness of all of these activities, 
including considering the needs of the indigenous people and 
communities of Alaska, can be enhanced through sustained cooperation 
with the State of Alaska and the Arctic Council.
Five actions in ``Changing Conditions in the Arctic''
Action 1: Improve Arctic environmental response management.
    The melting of sea ice and global market forces will encourage 
natural resource development in the Arctic. A commensurate rise in 
marine traffic will likely increase the potential for significant 
accidents and pollution incidents.
    Alaska's Lieutenant Governor Mead Treadwell recently pointed out 
the need to pay ``close attention to communities, the coastal 
communities, people who depend on subsistence resources, people who 
depend on whaling or sealing, or going after walrus to make sure that 
any oil spill response in the arctic works very closely with community 
members.''
    Preparing and responding to emergencies related to resource 
development and marine transportation in the Arctic requires improved 
coordination, planning, and training; stronger interagency research; 
and enhanced State, Federal, and international cooperation and 
collaboration.
    In the event that responsible private parties fail or are unable to 
meet their statutory responsibilities for prevention, mitigation, and 
cleanup of marine pollution events in the Arctic, this action addresses 
development and implementation of response coordination, procedures, 
and decision support systems to protect communities and ecosystems from 
oil spills and other incidents associated with resource extraction 
(e.g., oil and gas) and Arctic marine transportation (e.g., commercial 
shipping and tourism).
    Specifically, this action supports the development and 
implementation of response coordination and decision-support mechanisms 
to support agency responsibilities, such as NOAA's Arctic Environmental 
Response Management Application (ERMA), Alaska Joint Assessment Team, 
State-Federal Alaska Data Integration Working Group, and Alaska 
Regional Response Team (ARRT). A number of Federal departments and 
agencies are charged with ensuring that resource development projects 
and marine transportation comply with health, safety, and environmental 
protection standards. Implementation of this action will require close 
coordination with a number of existing entities, including the Arctic 
Interagency Policy Committee, the Interagency Working Group on 
Coordination of Domestic Energy Development and Permitting in Alaska, 
and internationally with the working groups and task forces of the 
Arctic Council.
Action 2: Observe and forecast Arctic sea ice.
    Sea ice forecasting is one of the most urgent and timely ocean 
issues in the Arctic region. Continued rapid loss of sea ice will be a 
major driver of changes throughout the Arctic, creating opportunities 
and challenges. Polar regions, although physically remote from major 
population centers, have profound significance for the global climate. 
They act not only as regulators of global temperature, but also as 
barometers of change. The loss of sea ice affects marine access, 
regional weather, global climate, marine and terrestrial ecosystems, 
and coastal communities. For example, a better understanding of how 
loss of sea ice in the Bering Sea (the location of the largest 
commercial fishery in the United States) will influence the entire 
marine ecosystem is of critical importance.
    All-season observations from spaceborne and airborne platforms, 
ships and ice camps, and instruments on and under Arctic sea ice 
provide short-term information on ice conditions for tactical users. 
Such observations also support research into understanding Arctic 
processes and environmental variability and in improving forecasts. 
This action will improve daily to weekly sea ice models and provide 
forecasts and new seasonal predictions in formats that are amenable to 
a wide variety of government agencies and regional users.
Action 3: Implement a distributed biological observatory.
    Changes in location and timing of the seasonal ice edge can have 
profound effects on benthic and pelagic marine ecology and human 
activity. These changes affect the distribution and abundance of baleen 
whales, and the ability of ice-dependent marine mammals to reproduce 
and rear young on ice. Likewise, stranding of ice-dependent species on 
land reduces their likelihood of survival or reproductive rate, and may 
make the animals less available to subsistence hunters. The effects of 
these changes on Arctic ecosystems and Alaska Natives who depend on 
these species are poorly understood.
    Continued observations are needed to form the basis of 
understanding the changing processes in the Arctic region. A 
distributed biological observatory is one distinct component of the 
integrated Arctic Observing Network. A distributed biological 
observatory will improve our understanding of how changes in climate 
and the Arctic ecosystem will affect subsistence cultures in the 
region. New collaborations and partnerships will increase our capacity 
to monitor and assess changing environmental conditions. In addition, 
all participating agencies will be better able to determine and 
mitigate the effects of their decisions on marine resources, resulting 
in improved conservation, protection, and management of Arctic coastal 
and ocean resources.
Action 4: Enhance communication systems in the Arctic.
    Communications are essential to implementing the Arctic priorities 
in the National Ocean Policy. Early warning and emergency response 
systems would improve our ability to assess the timing and nature of 
emerging events in the Arctic region, such as environmental disasters, 
and will improve responses to them.
    The Federal Government will advance two aspects of communications: 
technical capabilities and outreach. On the technical side, the Federal 
Government will strengthen existing communication systems to allow 
vessels, aircraft, and other users to effectively communicate with each 
other and to receive information (e.g., real-time weather and sea ice 
forecasts) that will significantly decrease the risk of environmental 
damage and loss of life and property at sea. On the outreach side, 
special emphasis will be placed on communications with native 
communities. This is in addition to enhancing the technical 
capabilities in these areas. The enhancements described here will build 
upon and support the guidelines and responsibilities in the Arctic 
Search and Rescue Agreement, to which the United States is a signatory.
Action 5: Advance Arctic mapping and charting.
    Lt. Gov. Treadwell, who is also the former Chairman of the U.S. 
Arctic Research Commission, has long been a proponent of additional and 
higher-resolution imagery, mapping and charting of Alaska's lands, both 
on and offshore. He and other Alaska State leaders, such as Cora 
Campbell, Commissioner of the Alaska Department of Fish and Game, and 
Doug Vincent Lang, Acting Director of the Division of Wildlife 
Conservation, have underscored the importance of such activities to 
Alaskans.
    As I too stressed in my testimony before this Subcommittee on May 
6, 2010, in the hearing on H.R. 2864 titled, ``Charting the Unknown: 
America's Arctic Seafloor,'' that maps and charts are central to our 
understanding of the Arctic region, and are essential for effective 
stewardship of this rapidly evolving environment. Knowledge of Arctic 
marine ecosystems, marine transportation, Arctic sovereignty and 
governance, and climate change adaptation strategies that coastal 
communities must develop to sustain their cultures and traditions all 
fundamentally rely on maps to visualize and depict critical aspects of 
the operating environment.
    While ocean and coastal mapping in general is part of the 
``Observations, Mapping, and Infrastructure'' priority objective in the 
draft Plan, this action will support the unique needs for accurate 
hydrographic surveys and shoreline mapping essential to modernizing 
nautical charts of U.S. Arctic waters and the Alaskan coastline. The 
action will enhance maritime commerce and help coastal communities 
develop adaptation strategies and disaster preparedness plans. It will 
increase the effectiveness of decisions regarding permitting, future 
ecosystem studies, and environmental stewardship. Mapping also supports 
biological habitat characterizations for ecosystem stewardship and 
restoration, development of storm readiness adaptation strategies for 
coastal communities facing the impacts of climate change, and emergency 
preparedness and response tools such as Arctic ERMA.
How was the draft Plan developed?
    The plan was drafted with the involvement of stakeholders and 
sought significant input, at various stages of development, from 
national, regional, and local stakeholders and the general public.
    Two public comments periods (from January through April, and from 
June through July) on a full-content outline of the plan were held in 
2011. Another comment period, on the draft Plan, has just closed.
    Public listening sessions were held in Barrow on June 9, 2011 and 
in Anchorage on June 10th. And to reach even further, a webinar, co-
sponsored by the U.S. Arctic Research Commission and the National Ocean 
Council, and hosted by the Alaska Center for Climate Assessment & 
Policy, of the University of Alaska Fairbanks, was held on April 19, 
2011, and included a Q&A session.
    Furthermore, the Governance Coordinating Committee, composed of 
State, Tribal, and local government officials, such as Mark Robbins, 
from the Alaska Governor's Office, and the Ocean Research Advisory 
Panel, including the Anchorage-based Director of the Alaska Ocean 
Observing System, Molly McCammon, provided input for the Plan.
    Comments and suggestions from these efforts, such as from the State 
of Alaska, from industry organizations, from non-governmental 
organizations and from individuals were duly considered and in many 
cases incorporated into what we drafted.
Fiscal Responsibility
    In developing the Arctic component of the draft Plan, we were 
instructed by the National Ocean Council to consider three questions:
        1.  What activities can be accomplished with existing Federal 
        and partner resources?
        2.  How can existing resources be re-purposed for greater 
        efficiency and effectiveness?
        3.  Where do we need to include activities that with minimal 
        additional resources may allow for additional truly 
        transformative and far-reaching impacts?
    These questions are addressed in the actions developed in the draft 
Implementation Plan, and are specifically detailed in the milestone 
section.
How will the Implementation Plan increase efficiencies?
    The Plan identifies not only resource requirements, but also 
expected efficiencies to be gained in plan implementation among Federal 
agencies, and with State, tribal, and local government partners. 
Through increased communication, coordination, and integration across 
all levels of government, agencies will streamline processes and reduce 
duplicative efforts, while better leveraging limited resources.
How will the draft Plan be used?
    Once final, each participating Federal agency will begin 
implementing the actions contained in the Implementation Plan. Federal 
agencies will coordinate and collaborate with State, Tribal, and local 
authorities, regional governance structures, academic institutions, 
nongovernmental organizations, recreational users, private enterprise, 
and other stakeholders. The Plan will be adaptive and allow for 
modifications. The Plan will be reviewed annually and modified, as 
needed, based on new information or changing conditions. Given the 
uniqueness of Alaska, regional coordination, planning and 
implementation of the Plan will be critical. Actions will need to be 
tailored to regional needs and priorities.
    In summary, the U.S. Arctic Research Commission supports the draft 
Implementation Plan for National Ocean Policy and specifically the 
actions proposed in the national priority objective, ``Changing 
Conditions in the Arctic.'' These actions are not yet final. But if 
properly supported, the Commission thinks these actions should 
significantly advance our knowledge and understanding of the Arctic 
Ocean, and these will be of great use to resource managers and policy 
makers responsible for the overall economy of the State of Alaska, the 
focus of this field hearing.
    Thank you for considering the Commission's views on the National 
Ocean Policy.
                                 ______
                                 
    Mr. Young. Ms. Moriarty, if the Administration continues to 
tell us that the National Ocean Policy and Marine Spatial 
Planning is not zoning, isn't that exactly what the Department 
of the Interior called it in the draft five-year plan?
    Ms. Moriarty. Congressman Young, yes. In fact, in the draft 
programmatic Environmental Impact Statement for this next 
year's leasing program, they said--the Department of the 
Interior stated that Coastal and Marine Spatial Planning, 
quote, has emerged as a new paradigm and planning strategy for 
coordinating all marine and coastal activities and facility 
constructions within the context of a National Zoning Plan, 
unquote.
    So to us that is a concern because clearly zoning of 
Alaska's oceans and coasts in advance of projects could 
severely impact resource development.
    Mr. Young. That was my interpretation. I'm glad you brought 
it up and clarified that.
    Mr. Parady, if the reach of the Marine Spatial Planning 
Initiative goes to the head of each watershed in Alaska, that's 
another concern. This is not just about oceans. Is there 
anywhere in the state that your operation would not be 
affected?
    Mr. Parady. I believe it reaches to every mining operation 
in the state, including those that are in advanced stages of 
exploration, such as Donlin or Pebble or any of the advanced 
exploration projects that are currently ongoing in the state.
    Mr. Young. OK. Again, do you have any sense of what 
criteria a potential mining operation will face when they get 
all the state and Federal permits? I heard it was 55 permits.
    What do you think this will add?
    Mr. Parady. Mr. Chairman, I think it will add, say, at 
least a year to a permitting timeline that already stretches 
through the five--the Pebble Project Limited Partnership, I 
think, has invested over $120 million in their environmental 
studies and has yet to reach the permitting process, and I 
think it's duplicative. The number I have on the number of 
permits required is 68. So somewhere between your 55, Eric's 60 
to 70 and my 68 is an enormous amount of environmental baseline 
data produced under NEPA and the Clean Water Act, et cetera.
    Mr. Young. Mr. Sturgeon, the draft National Ocean Policy 
Plan says that one of the national priorities and objectives is 
to address the major impacts of urban and sub-urban development 
on agriculture, including forestry and animals, on ocean, 
coastal and Great Lake waters. That sounds like your industry 
may be facing new restriction on forestry operations. I think 
in your testimony you already followed everything that's been 
required by you, right.
    Mr. Sturgeon. Representative Young, I certainly think so. 
What really concerns us about this when we talked earlier about 
the Coastal Zone Program when it first started, we thought it 
would be something that would protect waterfowl habitat and 
that kind of thing. But what happened very quickly is that they 
said anything that went inland, like salmon spawning, for 
example, and birds, migratory birds would go from the oceans to 
inland or anything that would transition in between would be 
part of the regulatory process. So this concerns us really a 
lot because we think this will affect our operations directly, 
so it's definitely something that's going to affect our 
industry.
    Mr. Young. Well, Mr. Sturgeon, again, I think the broad 
plan states that one of the action items is to protect 2 
billion acres of land and to identify the high conservation 
priorities with at least 35 percent being forest lands of the 
highest value for maintaining water quality.
    Do you have any idea where these high conservation priority 
lands will be identified and who will identify them?
    Mr. Sturgeon. Well, I don't know, but I can guess from past 
practices that if there's high-value timber there, it obviously 
will end up in the priorities. So I don't know where those are.
    Mr. Young. Again, do you think it will be--does anybody 
have any idea under this plan who would identify it.
    Mr. Sturgeon. No, we have no idea. It's one of the problems 
of the plan. It's really hard to evaluate it because it's vague 
in a lot of areas and the vagueness certainly concerns us right 
now.
    Mr. Young. Dr. Farrell, with all due respect, you said 
there wouldn't be any more regulations. They have already 
started implementing regulations. On what basis did you make 
that statement.
    Mr. Farrell. Well, just from my understanding and from what 
the Administration has been giving us.
    Mr. Young. You've got to respectfully question the 
Administration.
    I want to ask all of you: We're sitting here banging this 
Executive Order. There's been a reason why the bills, more than 
four bills that have been introduced on ocean policy haven't 
even got the light of day regardless of who's in control. You 
notice we took over control just a few years ago or two years 
ago. Before that, why didn't the Congress act? Do you think 
there can be a bill that would be beneficial, but still address 
some of the issues of the policies of the ocean?
    I'm one that believes in protecting the ocean, but this 
thing is so large and broad and the regulations--and by the 
way, rarely do lawsuits occur against the permittee, the permit 
person that applies for it. It occurs on the action of the 
agencies and did they do it right. That's what happens. It's 
never about--against the mining industry, against the oil 
industry or against the forestry industry; it's done against 
the agencies.
    With this many agencies it looks to me that this would be a 
great feeding ground for lawyers against the agency with the 
issue of the permit. Do you think we can write a bill--could 
there be a bill written that would solve the problems and 
concerns you have? Instead of just saying no, I'm always 
worried about--remember I said about the boy that ended up in 
jail. Sometimes it might be better if we wrote some 
legislation. Do you think as stakeholders you could be able to 
write something that would protect your interests and still get 
something done? Anybody, I don't care.
    Mr. Parady. I would only respond that I think clearly 
that's what's needed. Having a stakeholder engagement process 
in the concept of Federal rulemaking without having had the 
necessary legislative debate and creation of a balance of 
interest through statute is what's exactly missing here, is 
that chance for back and forth give and take so that we all get 
to put our views on the table and pound out some sort of 
reasonable compromise.
    These regulations are created in a--it's almost like the 
old-time convention environment, the back-room environment 
where they hadn't seen sufficient light of day. They need a 
legislative debate.
    Mr. Young. Anybody else?
    Ms. Moriarty. I would only add that I agree with Mr. Parady 
that, first of all, the stakeholders, if you're going to have 
an effective policy to regulate something as broad as our 
oceans, ocean is different here Alaska and across the Nation. 
We as stakeholders have not been invited to participate.
    I guess I would just go back to my original statement in my 
testimony that before we try and develop a brand new policy, 
why don't we try and improve the existing policies that we 
already have that protect several aspects of the oceans. We 
think that should be the first place to start. If there are 
gaps, then maybe there can be a piece of legislation to protect 
the oceans, but unless all the stakeholders are engaged and 
involved from the very beginning through all the details, I 
don't see how it would work.
    Mr. Young. Anybody else?
    Dr. Farrell, U.S. Arctic Research, I'm going to make a 
suggestion. I'm one that believes we are an Arctic nation 
because we're in the Arctic. And I would like suggest 
respectfully that the Commission stay in the Arctic. Don't get 
below it. That's just a little bit of advice. Because we do 
have challenges in the Arctic. It is an unknown area.
    But when I see the forest industry involved, the mining 
industry involved, the oil industry involved, the fishing 
industry involved, I get a little bit concerned when they 
haven't been at the table. Your table is relatively new, I 
mean, with all due respect. Climate change is happening. We 
probably have a navigational lead or we have a lot of different 
issues up there, which we did not have before. But these other 
ones are a known quantity. That's why I'm really looking for a 
possibility--I've asked staff maybe to look at it--that will 
offset this proposal.
    I really think this is just breeding a total standstill of 
any activities and not only in the ocean, I think this thing is 
so far-reaching. Again, I said that's why Congress hasn't acted 
because this will affect the farmers in Iowa, anything. They're 
not quite aware that this is a stealth attack. That's exactly 
what it is. I am very concerned. You.
    You may ask why we had these hearings up here today. We're 
building a record. We're going to--we sent a letter yesterday. 
Dr. Hickston is sending a letter from the Chairman to cut the 
funding. We're going to have letters now to all the different 
agencies requesting more information on what's happening here 
and we'll go--we already have one to the CEQ. We're going to 
have more members get involved because we do think this is a 
great encroachment on our individual states, our coastal state 
and existing law. Existing law. I'm pretty proud of the 
Magnuson-Stevens Act. I'm pretty proud of what it's been named 
to do. We are a nation and this is a state that relies on 
resources.
    A lot of our Congressmen don't understand that you can't 
recover in this nation the natural resources to manufacture it 
from. That is reality. You can't do it by buying all your 
clothes from China and our oil from overseas. You have to have 
a development of resources.
    So we're establishing a record. I have no more questions 
for the Subcommittee. We will probably submit some questions to 
you down the line establishing this record about where we're 
going along this issue. If there's no other comments from 
anybody, I would like to adjourn this hearing at this time. It 
lasted exactly about two hours. Thank you very much. This 
meeting is adjourned.
    [Whereupon, at 11:47 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by the Alaska Federation 
of Natives follows:]

                      Alaska Federation of Natives

April 6, 2012
The Honorable John Fleming, Chair
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
U.S. House of Representatives
416 Canon House Office Building
Washington, DC 20515

RE:  Comments of Alaska Federation of Natives on 'Alaska's Sovereignty 
In Peril: The National Ocean Policy's Goal to Federalize Alaska''

Dear Chairman Fleming:

    I am submitting the comments of the Alaska Federation on the 
oversight hearing on ``Alaska's Sovereignty In Peril: The National 
Ocean Policy's Goal to Federalize Alaska'' in form of a letter to the 
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs that 
was held in Alaska recently.
    By way of background, AFN is the largest Alaska Native organization 
in Alaska. Our membership includes 178 villages (both federally 
recognized tribes and village corporations), 13 regional for-profit 
Native corporations (established pursuant to the Alaska Native Claims 
Settlement Act), and 11 regional non-profit and tribal consortia that 
contract and run federal and state programs that provide a broad range 
of human services to their member villages. AFN's over-arching mission 
is to enhance and promote the cultural, economic and political voice of 
Alaska Natives.
    The United States Constitution provides that ``Congress shall have 
Power...To regulate Commerce. . .with the Indian Tribes.'' With this in 
mind, we ask you to include Alaska Natives as you move forward in 
addressing ``Alaska's Sovereignty In Peril: The National Ocean Policy's 
Goal to Federalize Alaska.'' The subcommittee must ensure that the 
voices and concerns of Alaska Natives, Alaska Native Tribes, Alaska 
Native Regional and village corporations and Alaska Native tribal 
consortia are considered when it addresses the nation's oceanic 
policies.
    We urge the subcommittee to consider the following:
        <bullet>  Congress must continue to support the Alaska Natives' 
        rights of exemption under the Marine Mammal Protection Act as 
        the oceans off the coast of Alaska are a source of food 
        security for our people.
        <bullet>  Funding Alaska Native in the management of marine 
        mammal mammals including their full involvement in research 
        activities regarding these resources.
        <bullet>  Recognition by the federal government that Title VIII 
        of ANILCA IS Indian Legislation.
        <bullet>  Amending ANILCA to replace the current rural priority 
        with a ``rural plus Native'' priority.
        <bullet>  Expanding tribal compacting and contracting of 
        subsistence programs.
        <bullet>  Exempting the Regional Advisory Councils (RACs) from 
        the Federal Advisory Committees Act (FACA).
        <bullet>  Ensuring Alaska Native communities are protected 
        throughout implementation of Department of Interior Secretary 
        Salazar's directives to the Federal Subsistence Board following 
        his review of subsistence management, to include at least the 
        following:
                <all>  Adopting the ``criterion-referenced'' 
                methodology (developed by the University of Alaska, 
                Anchorage's Institute of Social and Economic Research 
                or ISER) for making rural v. non-rural determinations.
                <all>  Deferring to Regional Advisory Committees 
                regarding the subsistence needs of the Alaska Natives 
                including but not limited to rural/non-rural 
                determinations as they are intimately familiar with 
                local conditions in their regions.
                <all>  Excluding Military bases from consideration--
                when military installations are in an area that 
                otherwise would be considered rural, the fact that a 
                military installation is present should not alter an 
                area's rural status.
    We ask that you add the comments of the Alaska Federation of 
Natives into the hearing record of the oversight hearing on ``Alaska's 
Sovereignty In Peril: The National Ocean Policy's Goal to Federalize 
Alaska,''
    We thank you for your consideration of protecting the rights of the 
people of Alaska, and in particular, the rights of the Alaska Natives 
who have lived off the land and waters within the State of Alaska long 
before the arrival of Western Society.
Sincerely,

Nelson N. Angapak, Sr.
Senior Vice President
cc: The Honorable Gregorio Kilili Camacho Sablan The Honorable Don 
        Young The Honorable Lisa Murkowski

                                 <all>

</pre></body></html>
